<html>
<title> - THE GM IGNITION SWITCH RECALL: INVESTIGATION UPDATE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



          THE GM IGNITION SWITCH RECALL: INVESTIGATION UPDATE

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 18, 2014

                               __________

                           Serial No. 113-154



              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                              __________  



                      U.S. GOVERNMENT PUBLISHING OFFICE
                
91-734                         WASHINGTON: 2016
  _____________________________________________________________________________
  For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
Internet: bookstore.gpo.gov. Phone: toll free (866) 512-1800; DC area (202) 512-1800
            Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001


                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
                                 
RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               FRANK PALLONE, Jr., New Jersey
JOSEPH R. PITTS, Pennsylvania        BOBBY L. RUSH, Illinois
GREG WALDEN, Oregon                  ANNA G. ESHOO, California
LEE TERRY, Nebraska                  ELIOT L. ENGEL, New York
MIKE ROGERS, Michigan                GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            DONNA M. CHRISTENSEN, Virgin 
LEONARD LANCE, New Jersey                Islands
BILL CASSIDY, Louisiana              KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     BRUCE L. BRALEY, Iowa
CORY GARDNER, Colorado               PETER WELCH, Vermont
MIKE POMPEO, Kansas                  BEN RAY LUJAN, New Mexico
ADAM KINZINGER, Illinois             PAUL TONKO, New York
H. MORGAN GRIFFITH, Virginia         JOHN A. YARMUTH, Kentucky
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Missouri
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina

              Subcommittee on Oversight and Investigations

                        TIM MURPHY, Pennsylvania
                                 Chairman
MICHAEL C. BURGESS, Texas            DIANA DeGETTE, Colorado
  Vice Chairman                        Ranking Member
MARSHA BLACKBURN, Tennessee          BRUCE L. BRALEY, Iowa
PHIL GINGREY, Georgia                BEN RAY LUJAN, New Mexico
STEVE SCALISE, Louisiana             JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
PETE OLSON, Texas                    KATHY CASTOR, Florida
CORY GARDNER, Colorado               PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
BILL JOHNSON, Ohio                   JOHN A. YARMUTH, Kentucky
BILLY LONG, Missouri                 GENE GREEN, Texas
RENEE L. ELLMERS, North Carolina     HENRY A. WAXMAN, California (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Tim Murphy, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     1
    Prepared statement...........................................     3
Hon. Diana DeGette, a Representative in Congress from the state 
  of Colorado, opening statement.................................     5
Hon. Fred Upton, a Representative in Congress from the state of 
  Michigan, opening statement....................................     6
    Prepared statement...........................................     7
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................     9

                               Witnesses

Mary T. Barra, Chief Executive Officer, the General Motors 
  Company........................................................    11
    Prepared statement...........................................    14
    Answers to submitted questions...............................   109
Anton R. Valukas, Jenner and Block...............................    17
    Prepared statement...........................................    18
    Answers to submitted questions...............................   121

                           Submitted Material

Document binder \1\..............................................    68
Committee memorandum.............................................    70
Letter of June 17, 2014, from the Center for Auto Safety to Mr. 
  Valukas, submitted by Ms. DeGette..............................    79
Report from June 2014 entitled, ``Driven to Safety,'' from the 
  American Association for Justice, submitted by Ms. DeGette.....    82

----------
\1\ The document binder can be found at: http://docs.house.gov/
  Committee/Search/Home.aspx?Keyword=Path%3a%22%2fIF02%2f%22.

 
          THE GM IGNITION SWITCH RECALL: INVESTIGATION UPDATE

                              ----------                              


                        WEDNESDAY, JUNE 18, 2014

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Tim Murphy 
(chairman of the subcommittee) presiding.
    Members present: Representatives Murphy, Burgess, 
Blackburn, Gingrey, Olson, Griffith, Johnson, Long, Ellmers, 
Barton, Terry, Upton (ex officio), DeGette, Braley, Schakowsky, 
Butterfield, Castor, Tonko, Yarmuth, Green, and Dingell.
    Staff present: Gary Andres, Staff Director; Charlotte 
Baker, Deputy Communications Director; Mike Bloomquist, General 
Counsel; Sean Bonyun, Communications Director; Matt Bravo, 
Professional Staff Member; Leighton Brown, Press Assistant; 
Karen Christian, Chief Counsel, Oversight; Brad Grantz, Policy 
Coordinator, Oversight and Investigations; Brittany Havens, 
Legislative Clerk; Sean Hayes, Deputy Chief Counsel, Oversight 
and Investigations; Kirby Howard, Legislative Clerk; Alexa 
Marrero, Deputy Staff Director; John Ohly, Professional Staff, 
Oversight and Investigations; Mark Ratner, Policy Advisor to 
the Chairman; Krista Rosenthall, Counsel to Chairman Emeritus; 
Tara Rothschild, Professional Staff, Oversight and 
Investigations; Tom Wilbur, Digital Media Advisor; Phil 
Barnett, Democratic Staff Director; Peter Boduer, Counsel; 
Brian Cohen, Democratic Staff Director, Oversight and 
Investigations, Senior Policy Advisor; Lisa Goldman, Counsel; 
Kiren Gopal, Democratic Counsel; Elizabeth Letter, Press 
Secretary; and Stephen Salsbury, Democratic Investigator.

   OPENING STATEMENT OF HON. TIM MURPHY, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Murphy. We now convene this hearing of the Oversight 
and Investigations Subcommittee, entitled, ``The GM Ignition 
Switch Recall: Investigation Update.'' I thank my colleagues 
and representatives for being here.
    Ms. Barra, when you were before this committee almost 3 
months ago, you could not answer many of this subcommittee's 
questions about why it took General Motors years to figure out 
why the airbags in the Cobalts, Ions, and HHRs, were not 
deploying when they should have. It took GM years before 
finally issuing a safety recall.
    Now Mr. Valukas has made public his report on the GM fiasco 
in which he concludes there doesn't appear to be a case of a 
cover-up or a conspiracy. Instead, according to Mr. Valukas' 
report, GM's failure to recall faulty vehicles was a case of 
incompetence and neglect. Perhaps this report should have been 
subtitled, Don't Assume Malfeasance When Incompetence Will Do.
    I still have questions about whether GM employees knowingly 
withheld information during previous liability lawsuits; 
information that could have led to an earlier recall, and 
prevented some of these tragedies from occurring.
    In many ways, the facts surrounding what finally resulted 
in the GM recall are far more troubling than a cover-up. GM 
engineers and attorneys who were given the facts, including 
reports on stalls and airbag malfunctions, and who were tasked 
with figuring out what went wrong, did not connect the dots. 
That is because they were either incompetent or intentionally 
indifferent.
    Today, I want to know from both Ms. Barra and Mr. Valukas 
not just how it happened, but why did this happen.
    Even when a good law, like the TREAD Act of 2000, is in 
place, it requires people to use commonsense, value a moral 
code, and have a motivation driven by compassion for it to be 
effective. Here, the key people at GM seemed to lack all of 
these in a way that underscores that we cannot legislate 
commonsense, mandate morality, nor litigate compassion, and at 
some point it is up to the culture of the company that has to 
go beyond paperwork and rules.
    The failures at General Motors were ones of accountability 
and culture. If employees do not have the moral fiber to do the 
right thing, and do not have the awareness to recognize when 
mistakes are being made, then the answer must be to change the 
people or change the culture. That is a lesson another large 
organization under congressional scrutiny should have also 
taken heart. I hope officials from the Veterans Affairs 
Department are watching.
    What is particularly frustrating about GM is that the 
company appeared in no great hurry to figure out the problems 
with its vehicles. Despite customer complaints, reports from 
GM's own engineers that they were able to turn off the ignition 
switch with their knees during test drives, and finally reports 
of deaths, it was not until 2009 that GM figured out the 
airbags had any connection to the power mode status of the car. 
Then, it took another 4 years to link that finding to one of 
the components that determines the power mode; the ignition 
switch. And that discovery was not a result of GM's own 
investigative work, but raised in the course of a lawsuit 
brought by the family of a young woman who died behind the 
wheel of a Cobalt. How was this discovered?
    An investigator for the family simply took two ignition 
switches apart and compared them; something GM failed to do 
during over 7 years of investigations into the mystery of 
Cobalt airbag non-deployment.
    Ms. Barra, you sought this internal investigation of the 
ignition switch recall and you have publicly acknowledged how 
troubling its findings are. Your company has cooperated with 
this committee's investigation, and I thank you for that. You 
have taken corrective action by changing procedures and trying 
to remove roadblocks to make sure safety concerns come to 
light. Based on this report, though, there are no easy fixes 
for the kind of systemic, cultural breakdowns and fundamental 
misunderstandings that permitted GM engineers not to suspect a 
safety problem when Cobalts were stalling due to a faulty 
ignition switch.
    The possibility that these problems are pervasive and 
cultural deeply concerns me. It concerns us all. We learned 
Monday that GM has announced yet another recall; its thirty-
ninth since January. This one is hauntingly similar to the 
Cobalt ignition switch recall. The ignition switch in certain 
Buicks, Chevys, and Cadillacs inadvertently moves out of the 
run position if the key has too much weight on it, causing the 
car to lose power and stall. The model years for the recalled 
vehicles goes back to the year 2000.
    Mr. Valukas, your report tells us about the engineering and 
legal findings with GM, but what it doesn't divulge is whether 
GM attorneys made conscious decisions during discovery in other 
product liability lawsuits that prevented the truth from coming 
out sooner and potentially saving lives. That kind of 
malfeasance should be the crux of a cover-up. I want to delve 
deeper into that issue today and find out if that occurred.
    A harder question to answer, and for you, Ms. Barra, to 
solve, is to why this happened. We know engineers approved a 
part that did not meet GM specifications. Why? Was it a cost 
concern? Was it a rush to get a car off the road? Was it just 
sloppy? When complaints were raised about Cobalt's ignition 
switch almost as soon as the car was on the road, why did the 
engineers not diagnose stalling as a safety problem? Again, was 
this a lack of basic education about how the car worked, or is 
it something less specific, but more difficult to address: a 
culture that does not respect accountability and that does not 
take responsibility for problems. When investigations drifted 
for years, there seems to be little to no evidence to suggest 
that this troubled anyone. Some of this is undoubtedly poor 
information-sharing and silos, and a failure to properly 
document change orders. But why didn't anyone at GM ask: we 
have known for years we have an airbag system that isn't 
working when it should; when are we going to do something about 
it?
    Ms. Barra and Mr. Valukas, I thank you for being here 
today. I look forward to your testimony.
    [The prepared statement of Mr. Murphy follows:]

                 Prepared statement of Hon. Tim Murphy

    Ms. Barra, when you were before this committee almost 3 
months ago, you could not answer many of this subcommittee's 
questions about why it took General Motors years to figure out 
why the airbags in its Cobalts, Ions, HHRs were not deploying 
when they should have. It took GM years before finally issuing 
a safety recall.
    And now, Mr. Valukas has made public his report on the GM 
fiasco in which he concludes there doesn't appear to be a case 
of a cover-up or a conspiracy. Instead, according to Mr. 
Valukas' report, GM's failure to recall faulty vehicles was a 
case of ``incompetence and neglect.''
    I still have questions about whether GM employees knowingly 
withheld information during previous liability lawsuits -
information that could have led to an earlier recall and 
prevented some of these tragedies from occurring.
    In many ways the facts surrounding what finally resulted in 
the GM recall are far more troubling than a cover-up. GM 
engineers and attorneys who were given the facts--including 
reports on stalls and airbag malfunctions--and who were tasked 
with figuring out what went wrong--didn't connect the dots. 
That's because they were either incompetent or intentionally 
indifferent.
    Today, I want to know from both Ms. Barra and Mr. Valukas 
not just how it happened but why did this happen.
    Even when a good law like the TREAD Act of 2000 is in place 
it requires people to use common sense, value a moral code, and 
have a motivation driven by compassion for it to be effective. 
Here the key people at GM seemed to lack all of these in a way 
that underscores that we cannot legislate common sense, mandate 
morality, nor litigate compassion. At some point, it's up to 
the culture of the company that has to go beyond paperwork and 
rules.
    The failures at GM were ones of accountability and culture. 
If employees do not have the moral fiber to do the right thing, 
and do not have the awareness to recognize when mistakes are 
being made, then the answer must be to change the people or 
change the culture.
    That's a lesson another large organization under 
congressional scrutiny should also take to heart; I hope 
officials from the Department of Veterans Affairs are watching.
    What is particularly frustrating about GM is that the 
company appeared in no great hurry to figure out the problems 
with its vehicles. Despite customer complaints, reports from 
GM's own engineers that they were able to turn off the ignition 
switch with their knees during test drives, and finally reports 
of deaths--it wasn't until 2009 that GM figured out the airbags 
had any connection to the power mode status of the car.
    Then, it took another four years to link that finding to 
one of the components that determines the power mode--the 
ignition switch. And that discovery was not a result of GM's 
own investigative work, but raised in the course of a lawsuit 
brought by the family of a young woman who died behind the 
wheel of a Cobalt.
    How was this discovered?
    An investigator for the family simply took two ignition 
switches apart and compared them--something GM failed to do 
during the over seven years of investigations into the mystery 
of Cobalt airbag non-deployments.
    Ms. Barra--you sought this internal investigation of the 
ignition switch recall and you have publicly acknowledged how 
troubling its findings are. Your company has cooperated with 
this committee's investigation. You have taken corrective 
action by changing procedures and trying to remove roadblocks 
to make sure safety concerns come to light. Based on this 
report, though, there are no easy fixes for the kinds of 
systemic, cultural breakdowns and fundamental misunderstandings 
that permitted GM engineers not to suspect a safety problem 
when Cobalts were stalling due to a faulty ignition switch.
    The possibility that these problems are pervasive and 
cultural deeply concerns me. We learned Monday that GM has 
announced yet another recall--it's thirty-ninth since January. 
This one is hauntingly similar to the Cobalt ignition switch 
recall. The ignition switch in certain Buicks, Chevys, and 
Cadillacs inadvertently moves out the ``Run'' position if the 
key has too much weight on it, causing the car to lose power 
and stall. The model years for the recalled vehicles goes back 
to the year 2000.
    Mr. Valukas--your report tells us about the engineering and 
legal failings with GM, but what it doesn't divulge is whether 
GM attorneys made conscious decisions during discovery in other 
product liability lawsuits that prevented the truth from coming 
out sooner and potentially saving lives. That kind of 
malfeasance would be the crux of a cover-up. I want to delve 
deeper into that issue today.
    A harder question to answer--and for you, Ms. Barra to 
solve--is why did this happen. We know engineers approved a 
part that did not meet specifications. Why? Was it a cost 
concern? Was it a rush to get a car on the road? Was it just 
sloppy? When complaints were raised about the Cobalt's ignition 
switch almost as soon as the car was on the road, why did 
engineers not diagnose stalling as a safety problem? Again, was 
this a lack of basic education about how the car worked--or is 
it something less specific, but more difficult to address: a 
culture that does not respect accountability and that does not 
take responsibility for problems. When investigations drifted 
for years, there seems to be little to no evidence to suggest 
that this troubled anyone. Some of this is undoubtedly poor 
information sharing and silos--and a failure to properly 
document change orders. But why didn't anyone at GM ask: we 
have known for years we have an airbag system that isn't 
working when it should--when are we going to do something about 
it?
    Ms. Barra and Mr. Valukas, I thank you for being here today 
and I look forward to your testimony.

    Mr. Upton. And I now turn to Ms. DeGette for 5 minutes.

 OPENING STATEMENT OF HON. DIANA DEGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you, Mr. Chairman.
    Mr. Chairman, we are still trying to unravel the facts that 
led to one of the worst automated tragedies of the last decade, 
and that is the installation of these faulty ignition switches 
in GM vehicles that we know has caused over a dozen deaths. 
These switches were bad from the start; they should have never 
been installed, and once they were installed, it became quickly 
clear to GM officials that something was very, very wrong with 
them. Disturbingly, the company left these unsafe vehicles on 
the road for over a decade.
    Mr. Valukas, you have done important work describing how a 
defect known to GM employees for over a decade went unaddressed 
for so long. This report paints a troubling picture of GM's 
culture and commitment to safety that allowed this tragedy to 
take place. It describes engineering and investigative 
failures, a lack of urgency in addressing issues, poor 
communication within the company, and numerous other systemic 
problems, and, in the end, the company failed to inform 
customers and federal regulators of the deadly problem. But the 
report, unfortunately, does not answer all of the key 
questions. It does not fully explain how the ignition switch 
was approved without meeting specifications, and then how it 
was redesigned in 2006. It does not fully explain why stalling 
was not considered a safety issue within GM. And most 
troubling, as the chairman alluded to, the report does not 
fully explain how this dysfunctional company culture took root 
and persisted. The report singles out many individuals at GM 
who made poor decisions or failed to act, but it doesn't 
identify one individual in a position of high leadership who 
was responsible for these systemic failures. The report 
absolves previous CEOs, the legal department, Ms. Barra, and 
the GM Board from knowing about the tragedy beforehand. This is 
nothing to be proud of. That the most senior GM executives may 
not have known about a defect that caused more than a dozen 
deaths is, frankly, alarming and does not absolve them of 
responsibility for this tragedy.
    Ms. Barra, while you are a new CEO, you have a decades-long 
history with GM. From 2011, you were executive vice president 
of global product development, and the GM staff responsible for 
vehicle safety reported either directly or through a chain of 
command to you. At least one high-level executive who was 
working on solutions to the ignition switch problem reported 
directly to you. So while you may not have known about this 
defect, many people who worked for you did.
    The culture of a company is shaped by its senior 
leadership. They set the tone and shape the attitudes of the 
employees. They are also responsible for putting in place 
systems to foster transparency, and ensure that safety issues 
are taken seriously. Those systems failed at GM.
    Today, what I want to know are specific answers to how the 
culture of secrecy at GM can be changed to encourage reporting 
of problems, not just structural management changes. I 
appreciate, Ms. Barra, the changes you have made at GM so far, 
but I think the jury is still out on whether we can have 
success in changing the culture.
    Last week, as the chairman mentioned, GM announced the 
recall of over 500,000 late-model Chevy Camaros, including 2014 
model year vehicles, because of ignition switch problems. And 
Monday evening, just a couple of days ago, another 3.3 million 
cars with ignition switch and engine shut-off issues were 
recalled, including Chevy Impalas that are currently in 
production. This means that this year alone, GM has announced 
44 recalls effecting more than 20 million vehicles worldwide.
    Ms. Barra, this record reinforces the notion that the 
safety problems with the Cobalt and Ion were not unique at GM, 
and that the senior executives at the company, including you, 
should have acted sooner to resolve the company's culture.
    So now, we need to show the American public that the 
changes that have been announced will really address the 
longstanding problems at GM.
    Mr. Chairman, Ms. Barra is not the only one with work to 
do. This committee should get to work on legislation to address 
the findings of our investigation. And, in these last few 
minutes, I also want to acknowledge the families who are here 
in the hearing room today, and their beloved loved ones with 
the picture on the back wall there. I know it is not easy for 
you to learn about so many things that went wrong at GM. You 
have my word that we will do our best to make sure that this 
kind of tragedy will never, never happen again.
    And, Mr. Chairman, I know that we can work together in a 
bipartisan way to do that. Thank you.
    Mr. Murphy. Thank you. Gentlelady's time has expired.
    I now recognize the chairman of the full committee, Mr. 
Upton, for 5 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, Mr. Chairman.
    Ms. Barra, we all thank you for returning to the committee 
today as you said you would.
    Three months ago, we held our first hearing on the GM 
ignition switch recall. We asked a lot of tough questions, but 
we got only a few answers. I expect things to go differently 
today.
    We have the Valukas report in-hand, and we have its word 
seared in our minds. Our investigation tracks with the findings 
of the report of maddening and deadly breakdown over a decade, 
plagued by missed opportunities and disconnects. Engineers 
didn't comprehend how their cars operated or how vehicle 
systems were linked together. The company believed a car that 
stalled while driving wasn't necessarily a safety concern. 
Investigators let investigations drift for years, despite 
having proof right before their eyes that an airbag system 
wasn't deploying when it should have, and all of this existed 
in a bureaucratic culture where employees avoided taking 
responsibility with a nod of the head.
    Ms. Barra, you have said you found the report deeply 
troubling as well. I find it very disturbing and downright 
devastating to you, to GM, to folks in Michigan who live and 
breathe pride in the auto industry, but most of all to the 
families of the victims.
    The recall announced on Monday this week makes it painfully 
clear that this is not just a Cobalt problem. A new set of 
vehicles, including multiple Chevrolet, Cadillac, Buick models, 
are facing an ignition switch recall for the very same kind of 
torque problem that lurked for over a decade in the Cobalt and 
similar small vehicles, with fatal consequences for 
unsuspecting drivers, including two teens from my own 
community.
    Ms. Barra, Mr. Valukas, many questions today will focus on 
how and why this happened. I intend to focus on how we can make 
sure it never happens again. A culture that allowed safety 
problems to fester for years will be hard to change, but if GM 
is going to recover and regain the public's trust, it has to 
learn from this report and break the patterns that led to this 
unimaginable systematic breakdown. I want specifics on whether 
the changes you have already put in place really have made a 
difference.
    With the Valukas report, GM is provided an assessment of 
what went wrong. I want to be clear today that our 
investigation does continue. This committee has reviewed over 
one million pages of documents, and interviewed key personnel 
from GM and NHTSA. While we are addressing GM's actions in 
response today, we will address NHTSA's part of the story in 
the near future. We don't yet have all the answers about what 
changes in our laws, the regulators' practices, or the 
company's culture, would have prevented this safety defect from 
lingering so long or harming so many, but we are going to find 
out. Yes, we will. The system failed and people died, and it 
could have been prevented.
    I yield the balance of my time to Dr. Burgess.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Ms. Barra, thank you for returning back to the committee 
today. Three months ago we held our first hearing on the GM 
ignition switch recall. We asked a lot of questions, but we got 
few answers. I expect things to go differently today.
    We have the Valukas report in hand, and we have its words 
seared in our minds. Our investigation tracks with the findings 
of the report: a maddening and deadly breakdown over a decade 
plagued by missed opportunities and disconnects. Engineers 
didn't comprehend how their cars operated or how vehicle 
systems were linked together. The company believed a car that 
stalled while driving wasn't necessarily a safety concern. 
Investigators let investigations drift for years despite having 
proof right before their eyes that an airbag system wasn't 
deploying when it should have. And all of this existed in a 
bureaucratic culture where employees avoided taking 
responsibility with a nod of the head.
    Ms. Barra, you have said you found this report deeply 
troubling. I find it deplorable, disturbing, and downright 
devastating--to you, to GM, to folks in Michigan who live and 
breathe pride in our auto industry, but most of all, to the 
families of the victims.
    The recall announced on Monday makes it painfully clear 
this is not just a Cobalt problem. A new set of vehicles--
including multiple Chevrolet, Cadillac, and Buick models--are 
facing an ignition switch recall for the very same kind of 
torque problem that lurked for over a decade in the Cobalt and 
similar small vehicles, with fatal consequences for 
unsuspecting drivers--including two teenagers from my own 
community.
    Ms. Barra and Mr. Valukas, many questions today will focus 
on how and why this happened. I intend to focus on how we can 
make sure it never happens again. A culture that allowed safety 
problems to fester for years will be hard to change. But if GM 
is going to recover and regain the public's trust, it must 
learn from this report and break the patterns that led to this 
unimaginable systemic breakdown. I want specifics on whether 
the changes you have already put in place have made a 
difference.
    With the Valukas report, GM has provided its assessment of 
what went wrong. I want to be clear today that our 
investigation continues. This committee has reviewed over one 
million pages of documents and interviewed key personnel from 
GM and NHTSA. While we are addressing GM's actions and response 
today, we will address NHTSA's part of this story in the near 
future. We don't yet have all the answers about what changes in 
our laws, the regulator's practices, or the company's culture 
would have prevented this safety defect from lingering so long 
or harming so many. But we will find out. The system failed and 
people died, and it could have been prevented.

    Mr. Upton. I yield the balance of my time to Dr. Burgess.
    Mr. Burgess. I thank the chairman of the full committee for 
yielding.
    We now know this is not an evidence problem. The evidence 
is simply overwhelming. It is an analysis problem. General 
Motors still needs to answer the fundamental question of how it 
missed all of these glaring signs. Indeed, failure to recognize 
the problems in a timely fashion may well have cost 13 people 
their lives.
    This report is deeply troubling. Maybe the most concerning 
aspect of the report is the simple recognition that, while 
everyone at General Motors had responsibility to fix the 
problem, no one took responsibility. That is unacceptable for 
one of America's flagship companies, and one that millions of 
us rely upon every day. Now, according to the report by Mr. 
Valukas, he offers 90 recommendations as to the problems and 
their failures that led to the ignition recall. I am certain 
that all 90 are crucial, but really, only one; accountability, 
and accountability that is not transferrable, is crucial. If 
personal accountability is missing, as the report here 
suggests, then disastrous consequences will not only occur, 
they will reoccur and reoccur.
    Ms. Barra, Mr. Valukas, I thank you for being here in our 
committee today. The Valukas report is a start, a first step to 
solving a problem by identifying it. I hope also there are some 
answers for many of us as to the effect of now the 
understanding of the problem, and when the understanding 
occurred. Will this affect those cases that have already been 
litigated? How does General Motors' bankruptcy affect its 
position on those cases that were previously litigated, and 
perhaps we can even touch on Mr. Feinberg's employment. Is he 
an employee of GM, or is he working for the crash victims. All 
of these questions need to be answered today, and I look 
forward to your testimony, and thank you.
    Mr. Murphy. The gentleman yields back.
    I now recognize Ms. Schakowsky for 5 minutes.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. I thank you, Mr. Chairman, for holding this 
hearing; the second on the failure to recall defective GM 
vehicles in a timely manner, and I thank our witnesses for 
being here.
    As I said at our first hearing on this issue, the families 
of the victims of GM's defective vehicles deserved better. GM 
failed you. We are looking at those pictures in the back of the 
room and they need more than an apology.
    On June 5, Mr. Valukas, who is well known in Chicago where 
I come from and well respected there, reviewed GM's ignition 
switch failures and his report was released on June 5. The 
report characterized GM as a company with a convoluted 
structure and very little accountability, a place where there 
was an institutional failure to communicate and coordinate both 
within and between different departments. There is a story 
today in Bloomberg Businessweek about a whistleblower who 
apparently tried to bring these problems to the attention of 
the company and lost his job as a result.
    During her previous appearance before the subcommittee, Ms. 
Barra repeatedly pointed to the importance of the Valukas 
report in addressing the many questions that she was not able 
to answer. I look forward to getting answers to those questions 
today.
    A question I raised at our last hearing has yet to be 
answered to my satisfaction, and that is how GM will compensate 
those who were injured or who lost loved ones in crashes prior 
to GM's bankruptcy in 2009. Ms. Barra said that it would take 
her and Kenneth Feinberg, who was selected to advise GM on 
options of how to establish a victims' compensation fund, up to 
to 60 days, from 30 to 60 days, from the time of the first 
hearing to determine how to proceed with those claims. That 
first hearing was April 1 and it has now been 79 days, and so I 
hope we will get the answers today.
    As Ms. Barra said when the Valukas report became public, 
``We failed these customers, and we must face up to it, and we 
must learn from it.''
    While 15 GM employees have been dismissed, it is not clear 
to me that any senior-level manager has been held responsible 
for the GM corporate culture that allowed the ignition switch 
defect to go unaddressed for years after it was first 
discovered in 2001. The question now is how far accountability 
extends at GM. As executive vice president of global product 
development, purchasing and supply from 2011, until taking over 
last year as CEO, Ms. Barra, my understanding is, was 
responsible for safety issues at the company. The Valukas 
report suggests that senior management at GM was unaware until 
2013 that serious questions should have been asked about the 
ignition switch defect, however, two newspapers, including the 
New York Times, addressed the ignition switch defect in 2005. 
Now, if I were a senior-level executive that read about those 
problems in the newspaper, I would want answers and action. It 
seems GM executives demanded neither.
    The Valukas report does make several suggestions on 
changing the corporate climate at GM, to respond faster and 
better to safety issues, and that includes improving 
communications with the National Highway Traffic Safety 
Administration, NHTSA, and I look forward to hearing from Ms. 
Barra about the changes the company has already made, and its 
plans for improvements in the future.
    GM paid the maximum penalty for failing to inform NHTSA 
about the ignition switch defect. That was $35 million. To me, 
it sounds like a lot of money, but that is not enough of a 
deterrent for a company with over $150 billion in revenue. It 
sounds to me more like a slap on the wrist. I am an original 
cosponsor of Ranking Member Henry Waxman's Motor Vehicle Safety 
Act, H.R. 4364, which would increase the maximum penalties for 
failing to inform NHTSA and the public of potentially deadly 
auto defects. As the ranking member of the Commerce 
Manufacturing and Trade Subcommittee, I am working on 
legislation that would do the same, while also addressing 
several other issues raised by the GM ignition switch defect, 
including requiring the public disclosure of technical service 
bulletins. Those are the bulletins which provide information to 
dealerships about how to repair vehicles that are experiencing 
a widespread problem kept from the public. In GM's case, TSBs 
were issued for the faulty ignition switch in 2005; almost 10 
years before a recall was issued. Those TSBs instructed 
dealerships to replace the defective part.
    I hope today's hearing will allow us to consider additional 
actions that might be needed in improving auto recalls, and I 
look forward to hearing from our witnesses.
    I yield back.
    Mr. Murphy. Thank you.
    I would now like to introduce the witnesses on the panel 
for today's hearing. Ms. Mary Barra is the Chief Executive 
Officer for General Motors Company, and has been in this role 
since January 15, 2014, when she also became a member of its 
board of directors. She has been with the company over 30 
years, and has held a number of positions in the company, 
including vice president of global manufacturing engineering 
from 2008 to 2009, and executive director of vehicle 
manufacturing engineering from 2005 to 2008. Mr. Anton Valukas 
is a litigator and the chairman of Jenner and Block. He is a 
former U.S. attorney and fellow of the American College of 
Trial Lawyers. He was hired by the General Motors corporation 
to conduct the internal investigation into the faulty ignition 
switch, and he is the author of the report on the findings that 
was released 2 weeks ago.
    I will now swear in the witnesses.
    You are both aware that the committee is holding an 
investigative hearing, and when doing so, has the practice of 
taking testimony under oath. Do you have any objections to 
testifying under oath? Both witnesses say they do not. The 
Chair then advises you that under the rules of the House and 
the rules of the committee, you are entitled to be advised by 
counsel. Do either of you desire to be advised by counsel 
during your testimony today? Both decline. Thank you. In that 
case, if you would please rise and raise your right hand, I 
will swear you in.
    [Witnesses sworn.]
    Mr. Murphy. Thank you. Both witnesses answered in the 
affirmative. You are now under oath and subject to the 
penalties set forth in Title XVIII, Section 1001 of the United 
States Code. You may now each give a 5-minute summary of your 
written statement.
    Ms. Barra, would you like to open? Thank you. Please pull 
the microphone close to you. Thank you. You have to turn it on 
as well. I think there is a--thank you.

   TESTIMONY OF MARY T. BARRA, CHIEF EXECUTIVE OFFICER, THE 
 GENERAL MOTORS COMPANY; AND ANTON R. VALUKAS, JENNER AND BLOCK

                   TESTIMONY OF MARY T. BARRA

    Ms. Barra. Thank you, Mr. Chairman. I appreciate the chance 
to appear before you again today on the ignition switch issue.
    Before I proceed with my brief remarks, I want to again 
express my sympathies to the families that lost loved ones, and 
those who suffered physical injury. I am ever mindful that we 
have a special responsibility to them and to those families, 
and the best way to fulfill that responsibility is to fix the 
problem by putting in place the needed changes to prevent this 
from every happening again.
    When I was here 11 weeks ago, I told you how we intended to 
proceed with this matter. I promised we would conduct a 
comprehensive and transparent investigation into the causes of 
the ignition switch problem. I promised we would share the 
findings of Mr. Valukas' report with Congress, our regulators, 
NHTSA and the courts. I promised we would hold people 
accountable, and make substantial and rapid changes in our 
approach to recalls. Finally, I promised we would engage Ken 
Feinberg to develop a just and timely program for compensating 
families who lost loved ones, and those who suffered serious 
physical injury. We have done all of these things and more, and 
I welcome the opportunity to discuss them with you further.
    The Valukas report, as you know, is extremely thorough, 
brutally tough and deeply troubling. It paints a picture of an 
organization that failed to handle a complex safety issue in a 
responsible way. I was deeply saddened and disturbed as I read 
the report. For those of us who have dedicated our lives to 
this company, it is enormously painful to have our shortcomings 
laid out so vividly. There is no way to minimize the 
seriousness of what Mr. Valukas and his investigators 
uncovered.
    On June 2, Mr. Valukas presented the findings of his 
investigation to the Board of Directors of General Motors. I 
will leave it to Mr. Valukas to comment on his report, but for 
my part, I want you to know my reaction to the report and some 
of the actions I have taken since reviewing it.
    First, we have made a number of personnel decisions. 
Fifteen individuals identified in the report are no longer with 
the company. We have restructured our safety decisionmaking 
process to raise it to the highest levels of the company, 
addressing a key point in the Valukas report that critical 
information was kept from senior management. Under the new 
system, this should never happen again.
    We are currently conducting what I believe is the most 
exhaustive comprehensive safety review in the history of our 
company. We are leaving no stone unturned, and devoting 
whatever resources it takes to identify potential safety issues 
in all of our current vehicles and on vehicles no longer in 
production. Our responsibility is to set a new norm and a new 
industry standard on safety and quality. I have told our 
employees it is not enough to simply fix this problem; we need 
to create a new standard, and we will create a new norm.
    We have announced the creation of, and have implemented, a 
new global product integrity organization that is already 
enhancing the overall safety and quality of our products, and 
we are taking a very aggressive approach on recalls, and we are 
bringing greater rigor and discipline to our analysis and 
decisionmaking process regarding these recalls and other 
potential safety-related matters. It is difficult to announce 
so many recalls, but it is absolutely the right thing to do.
    As we discussed last time, we have engaged Kenneth Feinberg 
to review options for establishing a compensation program, and 
the process is moving rapidly. Mr. Feinberg has the full 
authority to establish eligibility criteria for victims, and to 
determine the compensation levels. He has indicated he will 
share his final criteria with us by the end of this month, and 
we expect to begin processing claims by August 1.
    We have created a new position of vice president of global 
vehicle safety, and appointed Jeff Boyer, who is a highly 
respected expert in the field, to this position. I have 
personally told Jeff that he will have whatever resources he 
needs to do the job, and he has many already. In fact, we have 
also named a senior attorney to support him and to facilitate 
rapid information sharing across the organization. In addition, 
we have added 35 safety investigators that are already allowing 
us to identify and address safety issues much more quickly. And 
finally, we have instituted a Speak Up For Safety program, 
encouraging employees to report potential safety issues 
quickly, and we are recognizing them when they do so. This is 
more than a campaign or a program, it is the start of changing 
the way we think and act at General Motors.
    Two weeks ago, I addressed the entire global workforce 
about the report. I told our team as bluntly as I knew how that 
the series of questionable actions and inactions uncovered in 
the investigation were inexcusable. I also told them that while 
I want to solve the problems as quickly as possible, I never 
want anyone associated with GM to forget what happened. I want 
this terrible experience permanently etched in our collective 
memories. This is not another business challenge. This is a 
tragic problem that should never have happened, and must never 
happen again.
    The report makes a series of recommendations in 8 major 
areas. I have committed the company to act on all of the 
recommendations, and many of which we had started before and 
are already implemented.
    Finally, Mr. Chairman, and members of the committee, I know 
some of you are wondering about my commitment to solve deep 
underlying cultural problems that were uncovered in the report. 
The answer is simple. I will not rest until these problems are 
resolved. As I told our employees, I am not afraid of the 
truth, and I am not going to accept business as usual at GM. It 
is time, in fact, it is past time, to insist on total 
accountability, and to make sure vital information is shared 
across all functions of the company, so we can unleash the full 
power of our 200,000 employees, our 21,000 dealers, and our 
23,000 suppliers. We are a good company, but we can and must be 
much, much better.
    This is my focus, and this is my promise to you, our 
employees, our customers, our shareholders, and the American 
people.
    Thank you again for having me here today. I am pleased to 
take your questions.
    [The prepared statement of Ms. Barra follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Murphy. Thank you, Ms. Barra.
    Mr. Valukas, you are recognized for 5 minutes.

                 TESTIMONY OF ANTON R. VALUKAS

    Mr. Valukas. Have I got it?
    Mr. Murphy. You have to bring that very close to your 
mouth, and lift it up and----
    Mr. Valukas. All right. Thank you, Mr. Chairman.
    Mr. Murphy. Even closer if you would, sir.
    Mr. Valukas. Even closer?
    Mr. Murphy. Yes.
    Mr. Valukas. OK. Thank you. Now I have it? OK, thank you. 
Thank you, Mr. Chairman.
    In March of this year, General Motors asked me to determine 
why it took so long to recall the Cobalt and other vehicles 
that contained this faulty and defective switch, which has 
resulted in such disaster for General Motors and for the 
families who were involved in this matter. My explicit mandate 
from the General Motors Board of Directors was to promote and 
provide an unvarnished report as to how and why this occurred, 
to pursue the facts wherever they took us, and to report those 
facts in a report. General Motors' Board also directed me to 
make recommendations based on those factual findings to help 
them ensure that this did not happen again.
    Jenner and Block, my firm, was given unfettered access to 
General Motors witnesses and documents. In point of fact, we 
interviewed, in the 70 days or so, 230 witnesses, some of them 
multiple times, so we had about approximately 350 interviews, 
some of them lasting 6 to 8 hours. We viewed over 41 million 
documents, coming from the files of everybody from the top 
executives down to the individuals who were involved at the 
most technical level. A number of documents involved tens of 
millions of materials that were personally reviewed by 
individual reviewers, and all of this was in an effort to find 
out the facts as to why this Cobalt recall took over a decade, 
and why that defective switch remained unaccounted for during 
that period of time.
    A copy of that report was provided to the committee. I am 
not going to go through the details, but the story of the 
Cobalt is a story of individual and organizational failures 
that have led to devastating consequences. Throughout the 
decade it took General Motors to recall the Cobalt, there was, 
as has already been described here this morning by one of the 
Members, a lack of accountability, a lack of urgency, and 
extraordinarily a failure of the company personnel charged with 
safety issues to understand how this car was manufactured, and 
the interplay between the switch and other aspects of the 
automobile.
    In our report, we reviewed these failures, and identified 
cultural issues that may have contributed to this problem. As 
General Motors' Board requested, we have provided 
recommendations to help ensure that this problem does not take 
place in the future, but as we note in my written statement to 
you, that is an issue with which GM must deal. The report does 
not give all of the answers.
    Thank you.
    [The prepared statement of Mr. Valukas follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Murphy. Thank you very much.
    Now I recognize myself for 5 minutes of questions.
    Mr. Valukas, your report references such terms as the GM 
nod and the GM salute, where people nod in agreement and do 
nothing or look to others to do something, but no one accepts 
responsibility.
    Ms. Barra, do you agree with Mr. Valukas when he states 
that culture is the problem at GM, that a culture where GM 
personnel failed to recognize significant issues to 
decisionmakers, delayed the ignition switch recalls?
    Ms. Barra. I agree that there are specific people involved 
that did not act appropriately.
    Mr. Murphy. You have been with the company for 30 years, 
right?
    Ms. Barra. Yes, I have.
    Mr. Murphy. How does someone who has spent an entire career 
within the culture of GM change the culture of GM? I believe 
there are 210,000 employees or so with GM. You mentioned 15 
were fired.
    Ms. Barra. Yes.
    Mr. Murphy. That is 99.999 percent, if my math is right, of 
the people are the same. If you haven't changed the people, how 
do you change the culture?
    Ms. Barra. Well, again, the 15 people that are no longer 
with the company are the people that either didn't take action 
they should, or didn't work urgently enough to rectify this 
matter, and they are no longer part of this company. That was a 
strong signal to send within the company. Again, what is much 
more important is that we create the right environment where 
everyone in the company is able to come to work every day and 
do their best work, be supported, and that is the culture that 
we are working to create, that is the programs we have put in 
place, like Speak Up For Safety, and the structural changes we 
have made.
    Mr. Murphy. The previously-referenced article by Bloomberg 
notes that Courtland Kelley, who worked on the Cavalier, the 
predecessor to the Cobalt, raised questions about a defective 
fuel line. He had to continue to do that, even threatening in 
moving forward with whistleblower actions. This was referenced 
on page 93, Mr. Valukas, of your report where it says, ``Oakley 
also noted, however, that he was reluctant to push hard on 
safety issues because of his perception that his predecessor 
had been pushed out of the job for doing just that.''
    I guess this speaks to the question of what is a cover-up. 
Mr. Valukas, you concluded there was no conspiracy and no 
cover-up. Does an employee acting alone, who hides or doesn't 
share information, a cover-up?
    Mr. Valukas. I am sorry. Can--the latter part of the--the 
last part?
    Mr. Murphy. Does an employee who acts alone, or who hides 
or doesn't share information, a cover-up?
    Mr. Valukas. If the individual knows that the information 
is, for instance, a safety information, and understands that 
and deliberately decides to conceal that, that is a cover-up, 
yes, it is.
    Mr. Murphy. And on a corporate culture of carelessness, 
where lifesaving information sits in file boxes collecting 
dust, as you referred to, is that a cover-up?
    Mr. Valukas. What we found in connection with this, Mr. 
Chairman, was the following. We found that a large number of 
individuals had information that they--in the first instance, 
they didn't believe was safety-related information. Clearly up 
until about 2009, they looked at this as a convenience matter, 
and they dealt with it that way. We did not find evidence that 
any individual had a piece of evidence in connection with this 
Cobalt recall which they considered to be safety information, 
which they deliberately withheld from somebody else.
    Mr. Murphy. You put in your report though that Mr. Oakley 
specifically says he is reluctant to push hard on safety 
issues.
    Mr. Valukas. I am sorry?
    Mr. Murphy. You put in your report where Mr. Oakley 
specifically says, on page 93, he was reluctant to push hard on 
safety issues because of his perception that his predecessor 
had been pushed out of a job. That implies he withheld safety 
information.
    First of all, Ms. Barra, is he still working for you?
    Ms. Barra. Yes, he is, and actually he has raised issues 
and we are actively investigating. It is part of our Speak Up 
For Safety program.
    Mr. Murphy. Well, it sounds like he decided not to speak 
up.
    Ms. Barra. Well, he is now, and we are taking it very 
seriously.
    Mr. Murphy. I just find it hard to believe that of 210,000 
employees, not a single one in that company had the integrity 
to say, I think we are making a mistake here. Not a single one. 
That is puzzling to me. I mean even out at the VA Hospital, we 
have lots of whistleblowers. I don't see here in GM that there 
are whistleblowers. Not a single person you interviewed in 
this?
    Mr. Valukas. Well----
    Mr. Murphy. Well, let me jump to another question. I am 
going to get back to this, because there were also a lot of 
issues about lawsuits. You referenced some of those, but what I 
don't see here is questions, if GM responded appropriately to 
victims' discovery requests in the lawsuits, including what GM 
understood about the airbag deployment. Did you find that--I 
don't know if you spoke with plaintiffs' attorneys in this 
case, but did you find that in every case that information 
requested of GM was responded to in a timely manner of the 
plaintiffs' attorneys' request, and that the information they 
presented to GM was responded to?
    Mr. Valukas. Mr. Chairman, what we did was we--and at the 
very beginning of this investigation I sent letters and e-mail 
to the key plaintiffs' lawyers who were involved, and where 
there would be--in the most sensitive of these cases, I don't 
want to mention family names, but including the case that 
resulted in the disclosure of the two switches, inviting them 
to contact me so that we could talk in the investigation, 
determine that very issue, that deal with that issue. Not one 
of those attorneys responded to me. I also interviewed the 
attorneys who were outside counsel in connection with the GM 
matters, the particular piece of litigation, determine whether 
I had any evidence there of something which would indicate that 
GM had particular facts which they were withholding in order to 
accomplish something, and I did not find evidence of that in my 
discussions with outside counsel.
    I reviewed all of the e-mail relating to the legal 
department in connection with all of these cases. And I say I. 
Jenner and Block did, I didn't interview them personally, to 
determine whether there was any evidence that there was 
information that they had that they were now making a decision, 
for instance, to settle a case because they wanted to conceal 
the safety defect and prevent a recall, and I did not find 
information such as that, so----
    Mr. Murphy. I appreciate that. I am out of time, but I want 
to say there is a difference between not getting a response and 
not having the facts, and my assumption is when you tasked Mr. 
Valukas with getting all the information, if you don't have 
this information, do you still want it?
    Ms. Barra. I----
    Mr. Murphy. The information with regard to if information 
was not passed on to plaintiffs' attorneys who had made the 
request, do you still want that information? That is what I--I 
am out of time. I will go to Ms. DeGette.
    Ms. DeGette. Thank you, Mr. Chairman.
    Mr. Valukas, the Chairman just asked Ms. Barra about this 
GM nod and GM salute that you talked about in your report on 
page 255 and 256, where you said one witness described the GM 
phenomenon of avoiding responsibility as the GM salute, a 
crossing of the arms and pointing outwards to others, 
indicating the responsibility belongs to someone else, not me. 
And then you said, similarly, Mary Barra described a phenomenon 
known as the GM nod. The GM nod Barra described as when 
everyone nods in agreement a proposed plan of action, but then 
leaves the room with no intention to follow through, and the 
nod is an empty gesture.
    When the Chairman just asked Ms. Barra about this, she 
said, ``There were specific people involved that did not act 
appropriately.'' Do you think this company culture, the GM nod 
and the GM salute, was just limited to those 15 people who have 
been terminated from GM, yes or no?
    Mr. Valukas. I can't tell--I can't answer that question.
    Ms. DeGette. Do you think it was only 15 people who did 
this GM nod and salute?
    Mr. Valukas. No, I think there were a number of people----
    Ms. DeGette. Thank you.
    Mr. Valukas [continuing]. Who were on the committees.
    Ms. DeGette. Thank you.
    Mr. Valukas. OK.
    Ms. DeGette. And you learned that although the problems 
with the ignition switch's safety issues were known by many in 
the company, GM senior leadership, including Ms. Barra, was 
unaware of these issues for years. Is that correct?
    Mr. Valukas. That is factually correct.
    Ms. DeGette. Thank you. These leaders included GM CEOs, 
including Rick Wagner, Mike Millikin, who was then GM's general 
counsel, and Ms. Barra, correct?
    Mr. Valukas. That is correct.
    Ms. DeGette. And, Ms. Barra, you previously testified that 
you didn't know about the problems with the ignition switch 
until December 2013, is that correct?
    Ms. Barra. I testified I knew there was an issue with the 
Cobalt in December that they were studying. I knew there was an 
ignition switch issue on January 31, that's what I testified.
    Ms. DeGette. In December 2013, right?
    Ms. Barra. January 31, 2014, was when I knew----
    Ms. DeGette. OK.
    Ms. Barra [continuing]. There was an ignition----
    Ms. DeGette. Thanks.
    Ms. Barra [continuing]. Switch issue.
    Ms. DeGette. OK. Now, Gay Kent, who was the director of 
vehicle safety in your department, she made decisions in 2004 
about the stalling being a safety risk. Did she ever share 
those findings with you, yes or no?
    Ms. Barra. No.
    Ms. DeGette. And Jim Federico, a senior GM executive, 
brought in to find solutions to the airbag situation in 2012, 
he knew about the problems and he reported directly to you. Did 
he ever share his knowledge with you----
    Ms. Barra. He----
    Ms. DeGette [continuing]. Yes or no?
    Ms. Barra. Well, he reported directly to me at a portion of 
his time, and then he no longer reported----
    Ms. DeGette. But did he ever tell you about these problems?
    Ms. Barra. No he did not.
    Ms. DeGette. No, he didn't. Now, you have made a number of 
structural changes at GM, and I appreciate this and I know you 
are committed to doing it, but the company culture is what 
concerns me as well as the chairman, and the problems that I 
have identified today are not problems about who reports to 
whom, but rather a culture that encourages people not to stick 
their necks out and report things. And, in fact, just 
yesterday, I learned from a source very close to GM who has 
intimate knowledge of the culture there, that the results of 
Mr. Valukas' investigation and the terminations of these 15 
employees have only created more paranoia within the company 
that people are going to lose their jobs. And so I want to ask 
you, Ms. Barra, what are you doing, not just to change the 
structure and put these safety programs together and so on, but 
to change the culture of the company so that the company 
rewards people reporting problems, not sweeping it under the 
rug?
    Ms. Barra. We are doing a lot, and to your point, it is not 
done by words, it is not done by slogans, it is done by 
actions.
    Ms. DeGette. Well, so what is it that you are doing?
    Ms. Barra. So we have put the Speak Up For Safety program, 
and I am getting personally information from employees. I am 
acting on it, we have a regular program, we are going to be 
recognizing those individuals. I have spoken to all of our 
employees globally, encouraging them. But I think most 
important, the work that we are doing and the actions we are 
taking with the additional recalls demonstrate how sincere we 
are to the customer and the center of everything we do, and we 
want to make sure we are doing the right thing as it relates to 
safety, as it relates for quality----
    Ms. DeGette. But we----
    Ms. Barra [continuing]. And our employees are seeing that.
    Ms. DeGette. OK. I would like to see, if you may supplement 
your answer with the specifics of how you are rewarding this.
    Ms. Barra. Yes.
    Ms. DeGette. I would appreciate that.
    Ms. Barra. We can do that.
    Ms. DeGette. Now, I want to talk to you briefly about this 
compensation fund. I am pleased now that you are telling us 
that Mr. Feinberg is setting up a compensation fund, but we 
still don't have very many details of it. Has the company or 
Mr. Feinberg determined the criteria about who will be eligible 
for payment, yes or no?
    Ms. Barra. He is developing that, but I think the important 
point----
    Ms. DeGette. So we don't have that criteria yet----
    Ms. Barra. He has a----
    Ms. DeGette [continuing]. Correct?
    Ms. Barra. He has a draft protocol that he is getting 
input. He is an independent----
    Ms. DeGette. Would you please provide that to this 
committee, the draft protocol?
    Ms. Barra. We can.
    Ms. DeGette. Thank you very much.
    Ms. Barra. Can I add----
    Ms. DeGette. And----
    Ms. Barra [continuing]. A point?
    Ms. DeGette. And--no. Let me ask you this. Will Mr. 
Feinberg have discretion to make eligible for payment victims 
beyond those identified by GM to date, because we are hearing 
there may be up to 100 deaths from this?
    Ms. Barra. We want to capture every single person who 
suffered serious physical injury or lost a loved one, every 
single person as a result of the ignition switch----
    Ms. DeGette. So your answer is yes?
    Ms. Barra. Yes.
    Ms. DeGette. OK, and will those people who receive payment 
through this program be required to release their legal claims?
    Ms. Barra. I am sorry, the voluntary program?
    Ms. DeGette. No. If they get compensated from Mr. 
Feinberg's program, will they have to release their legal 
claims to go to court? Do you know?
    Ms. Barra. This program is in lieu of taking this to court.
    Ms. DeGette. So your answer is yes?
    Ms. Barra. I can't say exhaustively, but as it relates to 
this specific instance, yes.
    Ms. DeGette. OK, will you submit your answer please and let 
me know that?
    Mr. Murphy. Thank you.
    Ms. DeGette. Thank you very much.
    Mr. Murphy. Gentlelady's time expired.
    Now recognize Mr. Upton for 5 minutes.
    Mr. Upton. Thank you again.
    You know, I am a firm believer that you cannot solve a 
problem that you don't acknowledge or fully understand, so 
while I am going to try to be very interested in forward-
looking solutions, I want to begin by walking through and 
defining some key problems that we identified from this report.
    First, a simple yes or no. Is it true that GM engineers did 
not believe the ignition switch moving from run to accessory 
and causing a stall, constituted a safety problem? First, Ms. 
Barra----
    Ms. Barra. Initially----
    Mr. Upton [continuing]. And then----
    Ms. Barra [continuing]. Yes.
    Mr. Upton. And Mr. Valukas?
    Mr. Valukas. Yes.
    Mr. Upton. Can you confirm that a GM engineer test driving 
the Cobalt in '05 experienced a shutoff after hitting the key 
with his knee, and that his report on the incident was 
categorized as an annoyance rather than a safety issue?
    Ms. Barra. Yes, that was quite true.
    Mr. Upton. So let us continue talking about how GM employee 
warnings and experiences were handled. I read with a lot of 
concern this morning's news coverage alleging that employee 
safety concerns went unheeded. I won't ask you to respond to a 
particular newspaper article, but I do want to get your 
reaction to a case uncovered in our investigation about a 
specific employee concern, and I want to know how it was 
handled at the time and how it would be handled if it was 
raised today. And you have a tab on page 83 in your binder, but 
in '05, a GM employee drove an '06 Chevy Impala home from work. 
When she hit a bump in the road, the ignition switch fell out 
of the run position and stalled the car. Let me read you from 
her e-mail, which is up on the screen, sent in October of '05 
after she took the vehicle for repair. ``I think this is a 
serious safety problem, especially if this switch is on 
multiple programs. I am thinking big recall. I was driving 45 
miles per hour when I hit the pothole and the car shut off, and 
I had a car driving behind me, swerving around me. I don't like 
to imagine a customer driving with their kids in the backseat 
on I-75 and hitting a pothole in rush-hour traffic. I think you 
should seriously consider changing this part to a switch with a 
stronger detent.''
    So to reiterate, nearly 9 years ago, a GM employee 
suggested the stalling of the '06 Impala was a serious safety 
problem, and speculated that a big recall was coming. So when 
was the recall for the '06 Impala announced, do you know?
    Ms. Barra. I believe that was part of Monday's----
    Mr. Upton. Two days ago. Monday. Nine years ago. So looking 
at that case, and looking as if it happened today, can you tell 
us specifically how a concern like this would be handled if it 
was raised today?
    Ms. Barra. Yes. As I testified when I was here last time, 
we consider a stall to be a safety issue, and so when a stall 
is brought forward, if we then learn and understand it is 
because of a defect in the way some part of a system in the 
vehicle is working, we are going to address it. We do have to 
understand stalls also happen when you run out of gas or pop 
the clutch, but if we are aware of a stall, and we then learn 
that it is because some part of the vehicle or a system is not 
operating properly, we will immediately take action, and that 
is what is represented in what we did on Monday.
    Mr. Upton. Mr. Valukas, in going through the report, there 
were some comments made as to the consumer friendliness of the 
TREAD Act requirements in terms of complaints that were 
received. What suggestions might you have relating to that, in 
terms of how we proceed in the future?
    Mr. Valukas. I don't have a specific legislative suggestion 
for you. I did include in the recommendations something which I 
think is very important for General Motors, which is they need 
to look at NHTSA as a partner in this issue, and not somebody 
to be held at bay, so that the transmission of information is a 
free flow of information and problems are elevated at the 
earliest possible point. It is clear to me from the earlier 
aspects of this investigation that there were times where it 
was almost an adversarial relationship rather than a passing of 
information, but I don't have a legislative suggestion for you.
    Mr. Upton. Ms. Barra, do you have a comment as it relates 
to the compiling of the information for the TREAD Act for the 
complaints?
    Ms. Barra. I think it is very important that we have a 
productive relationship with the Agency, with NHTSA, and I do 
think there are things that can be done through the national 
VIN database and also improving the search capability and 
ability to use valuable information that is in the TREAD 
database.
    Mr. Upton. OK. I yield back.
    Mr. Murphy. Thank you. I have a clarifying question based 
on something Ms. DeGette and Mr. Upton said. Given that I think 
GM has now recalled something like 40 million cars, do you have 
a revised number on the number of deaths and crashes that may 
have been associated with the faulty ignition switch? Do you 
have a number yet?
    Ms. Barra. The recall that we did on Monday, there's no 
known--we know of no fatalities.
    Mr. Murphy. But overall, related to what Ms. DeGette was 
saying, is there----
    Ms. Barra. With the information that we have as it relates 
to the Cobalt and the population of those vehicles, the known 
number we have is still 13.
    Mr. Murphy. Thank you.
    Recognize Mr. Dingell now for 5 minutes.
    Mr. Dingell. Thank you, Mr. Chairman. Welcome to Ms. Barra 
and to Mr. Valukas. We appreciate you being here today.
    You, Mr. Valukas, and your team have compiled a report 
about serious internal shortcomings at General Motors that has 
contributed to the company's failure to report a safety defect 
in the Chevrolet Cobalt. I know that Ms. Barra shares my grave 
concern about the report's findings, and I look to her and the 
GM leadership for establishing more responsible and 
communicative cultures at GM.
    We all recognize your report as not an end to the 
investigation. It does impute a number of commonsense 
recommendations which I feel GM should commit to implementing 
in full.
    My questions to Ms. Barra today will require simple yes or 
no answers. Now, to Ms. Barra, we have learned that Cobalt's 
ignition switch was redesigned, but it was not given a new part 
number. This obfuscated the company's internal investigation, 
and contributed to a delay in defect reporting and subsequent 
recalls. Mr. Valukas suggests in his report that GM adopt 
procedures that include a specific protocol for reviewing 
authorizations of out-of-specification parts, tracking out-of-
specification parts, identifying who should be notified of 
them, and identifying and elevating any particular safety 
issues that might be associated with the use of out-of-
specification parts. The report goes on to suggest that high-
level review should be required before approval of use of an 
out-of-specification part.
    Now, does GM commit to implementing these particular 
suggestions in full, yes or no?
    Ms. Barra. Yes.
    Mr. Dingell. Now, Ms. Barra, subsequently, Mr. Valukas 
suggests in his report that GM make improvements in its problem 
resolution tracking system, PRTS. More specifically, his report 
suggests that the standard for closing PRTS without action is 
clearly defined and sufficiently rigorous. He goes on to 
suggest that PRTS should not be closed without action, absent 
clear sign-off by named individuals, and appropriate levels of 
review. Furthermore, his report suggests that GM reaffirm that 
the lack of an acceptable business case is not an acceptable 
reason for closing out a PRTS if that involves a safety issue.
    Does GM commit to implementing all of these suggestions 
moving forward, yes or no?
    Ms. Barra. Yes.
    Mr. Dingell. Now, again, Ms. Barra, likewise I think we all 
agree with Mr. Valukas, that GM should implement more robust 
policies and training with respect to component and vehicle 
safety matters.
    At the most basic level, does GM commit to training its 
employees about the lessons learned from the Cobalt 
investigation, yes or no?
    Ms. Barra. Yes.
    Mr. Dingell. Now, again, Ms. Barra, will GM train employees 
to recognize and elevate safety issues, including the emphasis 
on the need to identify and address safety issues actively, 
regardless of whether the vehicles are in the design or 
production phase, yes or no?
    Ms. Barra. Yes.
    Mr. Dingell. Now, again, Ms. Barra, when fostering a 
culture of safety, I think we all recognize it is very 
important that employees who recognize and report safety 
problems in components and vehicle feel comfortable in so 
doing.
    As such, does GM commit to promote visibility and enforce 
rigorously the non-retaliation policy contained in paragraph 19 
of the May 16 NHTSA consent order, yes or no?
    Ms. Barra. Yes.
    Mr. Dingell. Now, Ms. Barra, it is also important that all 
automakers communicate clearly and promptly with NHTSA. I said 
all automakers.
    Will GM create a centralized database for all 
communications with NHTSA, and train its employees who 
communicate with NHTSA, to file their communications in this 
database, yes or no?
    Ms. Barra. Yes.
    Mr. Dingell. Now, do you think that that is good for other 
companies?
    Ms. Barra. Yes, I do.
    Mr. Murphy. Gentleman's time has expired.
    Mr. Dingell. Mr. Chairman, I thank you for your courtesy.
    Mr. Murphy. Thank you very much.
    Now recognize the vice chair of the full committee, Mrs. 
Blackburn, for 5 minutes.
    Mrs. Blackburn. Ms. Barra, I thank you for coming back.
    I have a few questions for you, and I have to tell you, 
many of my questions that I asked and couldn't get answers for 
in April when you were with us, you said after Mr. Valukas 
finished the report, you hoped to be able to answer these 
questions.
    Now, since that time, I have been able to be on the floor 
at the Springhill facility which is there in my district. We 
have 1,868 employees that certainly do not want the GM brand to 
be tarnished by all of this, and so it is important to me on 
behalf of all those constituents that we get some answers, and 
that we do this very quickly. So we thank you for coming back 
to us today.
    I want to go back to something I asked you about in April, 
and you explained that a part that doesn't meet all 
specifications can still be acceptable for safety, and the 
example that you used was with steel. Now, we know that the 
Cobalt ignition switch was redesigned in '06, right? And 
testing documents from that time show that the torque of the 
redesigned switch was still below specifications, and yet after 
this change, the reported incidents of non-deployment in these 
vehicles dropped dramatically.
    Well, when we look at that and we read those documents, and 
the chairman mentioned, we have been through 1 million pages of 
documents, and 15,000 pages of documents from NHTSA. So we are 
not sitting idly on this, we are taking some action.
    So I want you to go back through this and elaborate on your 
response that something could still not meet specifications and 
be acceptable for safety, and I would like to hear from you 
when it is OK to deviate from specifications, and people in the 
process not be aware of this.
    Ms. Barra. Well, I think when you look, as you start 
developing something, you have a design specification, but what 
is most important, and the testing that we are doing now is--
and had done in the past, but are doing in a much more broad 
fashion now, relates to the actual performance of the part and 
how the part operates in a subsystem, how it operates in a 
broader system, and then how it operates in the vehicle. And so 
as we design now, we are validating that the part level, with 
the new organization we put together called the product 
integrity organization, they are actually now looking into a 
much more validation as it relates to subsystems, because what 
you really want to know is, as all the parts come together, 
that it is going to operate as a system and perform safely.
    Mrs. Blackburn. OK.
    Ms. Barra. And that is what the new organization is 
accomplishing.
    Mrs. Blackburn. OK, so what you are saying then, if it 
doesn't affect safety or effectiveness, it is OK not to meet 
specifications.
    Ms. Barra. I am saying there are times where, as long as--
it has to meet the performance requirements.
    Mrs. Blackburn. OK, then how should an engineer evaluate 
the performance, the part's performance, against the technical 
specifications?
    Ms. Barra. Again, there is--you look at performance against 
requirements. What are the requirements of how that part needs 
to behave in the system, and that is how an engineer evaluates 
it. And, again, what we are doing now is taking that much more 
broadly, so we are not relying on one person----
    Mrs. Blackburn. OK.
    Ms. Barra [continuing]. To understand across the whole 
vehicle.
    Mrs. Blackburn. Then in this product integrity system, how 
does GM track the deviations that are occurring from the 
technical specifications?
    Ms. Barra. That is all captured in, you know, very specific 
documents.
    Mrs. Blackburn. How transparent is it? Is it transparent to 
the----
    Ms. Barra. It is----
    Mrs. Blackburn [continuing]. Engineer?
    Ms. Barra. It is available to the engineers, to the chief 
engineers in the organization.
    Mrs. Blackburn. OK, was this done, when the switch was 
approved in '02 and redesigned in '06?
    Ms. Barra. No, what I am talking about is what we have done 
this year.
    Mrs. Blackburn. OK, so this was not done. So we still 
have--there was a glitch in the system and people approved a 
part that was not OK.
    Ms. Barra. Well, the problem with the specific change you 
are referring to was that change was made and it was not 
documented.
    Mrs. Blackburn. OK, then how does a GM engineer know when 
there is a deviation from a specification if it is too much or 
too little, or if it is acceptable or if it is going to pose a 
safety problem?
    Ms. Barra. Again, there are a couple of aspects of this 
that you have to look at, but if you go back to when those 
changes were made and it wasn't documented, the records were 
not there to document there was a change, and that was 
something that is unacceptable, and the individual who didn't 
document that is no longer with the company. I am telling you 
that as you do good engineering, you are going to make sure you 
understand the requirements of what you are designing, make 
sure the part, the subsystem, the system meets those 
requirements, and have full documentation.
    Mrs. Blackburn. OK. All right, I will yield back.
    Mr. Murphy. The gentlelady yields back.
    Now recognize Mr. Braley for 5 minutes.
    Mr. Braley. Thank you, Mr. Chairman.
    Ms. Barra, welcome back. Mr. Valukas, welcome to the 
committee.
    Ms. Barra, I want to start with some of the comments you 
made in your opening remarks. I have a couple of questions I 
want to talk to you about.
    You mentioned specifically that you had promised that you 
would conduct a comprehensive and transparent investigation. Do 
you believe that that was accomplished?
    Ms. Barra. I think the Valukas report was comprehensive. It 
was very far-reaching and we have shared that information.
    Mr. Braley. And you also said that you promised you would 
share the findings of the report with Congress, our regulators, 
NHTSA and the courts.
    This is a copy of the report that we received, and it 
states on the very front page of the report, privileged and 
confidential, protected by attorney-client privilege and as 
attorney work product. You indicated that you hired Mr. Valukas 
to do this independent investigation, but it is obvious from 
the report that you considered this to be an attorney-client 
relationship, and the report itself has sections blacked out so 
that we, on this panel, don't know who some of the victims were 
that are identified in the report. Were you aware of that?
    Ms. Barra. Yes.
    Mr. Braley. You also indicated that you would engage Mr. 
Feinberg to develop a just and timely program for compensating 
the families who lost loved ones, and those who had suffered a 
serious physical injury, including the families who are 
represented here today. There was a recent news report from the 
Detroit News which indicated that Mr. Feinberg has confirmed 
that the compensation fund will not in any way address people 
who weren't killed, people who weren't seriously injured, whose 
value of the automobiles they purchased has been diminished 
because of all the controversy over these parts that we have 
been talking about. Were you aware of that?
    Ms. Barra. The compensation program that Mr. Feinberg will 
independently administer is for those who lost loved ones or 
those who suffered seriously physical injury. The issue of the 
value of the vehicle is in front of the courts.
    Mr. Braley. And that will not be addressed by Mr. Feinberg?
    Ms. Barra. That is correct.
    Mr. Braley. Now, one of the things that we know is that 
this year alone, GM has issued an astonishing 44 recalls, 
covering 17.7 million vehicles in the U.S., and more than 20 
million worldwide. How many of those recalls, to your 
knowledge, relate to problems that were known to someone in GM 
before the bankruptcy sale order of July 2009?
    Ms. Barra. At the senior level of the company, none, or the 
action would have been taken.
    Mr. Braley. So it is your testimony that none of those are 
covered.
    Ms. Barra. I am not sure what you just said.
    Mr. Braley. You are saying here today that none of the 
recalls that have been initiated this year relate to problems 
known to someone at GM before the bankruptcy sale order in July 
of 2009.
    Ms. Barra. What I said was the senior leadership had no 
knowledge of those issues----
    Mr. Braley. And that is not my question. You did a very 
exhaustive investigation into the cultural problems at GM.
    Ms. Barra. Yes, we did.
    Mr. Braley. My question is, as part of that investigation, 
did you identify anyone working at GM who had knowledge 
relating to those product recalls that covered products 
affected by that bankruptcy discharge order in July of 2009?
    Ms. Barra. Again, if there was a known safety issue, there 
would have been a recall done.
    Mr. Braley. Did you attempt to determine that?
    Ms. Barra. I was not involved in that process so I can't 
comment.
    Mr. Braley. Isn't it possible that that discharge order 
contributed to GM's lax approach to safety defects on cars 
built by the old GM?
    Ms. Barra. Absolutely not.
    Mr. Braley. Well, we have talked a lot about this culture 
of irresponsibility at GM. You have testified about it. It is 
covered in Mr. Valukas' report. How can you say absolutely not 
when you haven't even focused on that issue?
    Ms. Barra. Evidence of that is there were many recalls that 
were conducted during that period of time, but I would say now 
with--we have re-doubled our efforts, and we have gone back 
even more exhaustively than looking at data from TREAD, data 
from customer feedback, and we are now even--with the product 
integrity organization, it is already accomplishing its task of 
going and looking at how the vehicle performs to a higher 
level, to ensure we have the safest vehicles.
    Mr. Braley. Mr. Valukas, you focused on this culture at GM 
in your report. You weren't here the first time when I showed 
Ms. Barra the screwdriver that was handed out by General Motors 
in the '70s and '80s as a promotional item, and it says safety 
comes first at GM on this screwdriver. As part of your 
investigation into the history and culture of GM, did you look 
back at to whether the old GM had made safety a priority the 
same way that Ms. Barra says the new GM is committed to it here 
today, and aren't there institutional problems that are much 
far-reaching--much more far-reaching than simply firing 15 
employees?
    Mr. Valukas. Congressman, good question. We looked back and 
solicited from everybody that we interviewed information about 
whether something they--something in the culture caused them to 
do something differently than they otherwise would have done, 
or whether safety became a secondary issue. Almost uniformly, 
people would say to us safety was the top priority, but we 
identified in this report all of the instances of which we were 
aware relating to this matter where people took a different 
position, so it is there. And I would not ascribe to everybody 
the conduct of the people involved here, but I do say that 
culture had something to do with the reason why this recall 
took so long.
    Mr. Braley. My time is up. Thank you----
    Mr. Valukas. Thank you.
    Mr. Braley [continuing]. For your testimony.
    Ms. Murphy. Thank you.
    Now recognize Mr. Barton of Texas for 5 minutes.
    Mr. Barton. Thank you, Mr. Chairman. Ms. Barra, we are glad 
to have you back, and Mr. Valukas, we are glad to have you 
before us.
    Our opportunity or responsibility on the committee is to 
provide for the general welfare, and in doing that, get the 
facts on the table so that people can have faith that the 
products that your company produces are safe. And, of course, 
your requirement is to make sure that you do produce a safe 
product that hopefully results in a profit for the company and 
the stockholder, but we are both on the same side. We both want 
products that are safe, and let the public be aware of the 
capabilities, but also the shortfalls.
    I am going to ask most of my questions to Mr. Valukas, 
simply because we didn't have your report last time, but I will 
have one or two questions for Ms. Barra at the end of my time.
    I want to focus on the fact that the part number was not 
changed back in April of 2006. A GM engineer did approve 
changes to the ignition switch, but did not change the part 
number. And, Mr. Valukas, in your report, you observed that the 
decision to not change the part number was not properly vetted 
or scrutinized. You note that a Mr. DeGiorgio did not recall 
why he did not change the part number. Is that correct, is that 
what your report says?
    Mr. Valukas. Mr. DeGiorgio told us that he did not change 
the part number, and that as he looked back at it, that he 
reflected that he should have changed the part number.
    Mr. Barton. OK. And apparently, and obviously, that is very 
important because you have a part number change, then that 
creates a paper trail, there was some sort of a problem that 
had to be corrected, and if you are doing an investigation, you 
can compare, and from that time forward, see if the problem was 
fixed.
    Now, I want to direct your attention to that big binder 
that we have right between you and Ms. Barra, and on tab 35----
    Ms. Valukas. Thirty-five?
    Mr. Barton. Yes, sir, 3-5.
    Mr. Valukas. Give me a moment.
    Mr. Barton. There is an April 5 chain of e-mails between 
this Mr. DeGiorgio and the engineers at the switch supplier, 
Delphi, and some other GM employees. Attached to that exchange 
is a spreadsheet of upcoming changes to the Delta ignition 
switch. Can you locate that?
    Mr. Valukas. I think I have it, yes.
    Mr. Barton. OK. Now, it is interesting to me that these OK, 
the subject is not anything that is safety-related. The subject 
matter is Delta ignition switch changes, tooling tweaks, 
increased process capability. And then in the e-mail it talks 
about this is a black box design, and they want to change the 
part to increase the process capability. This will improve the 
fallout rate at the Delphi Condura plant.
    Well, first of all, what is a fallout rate?
    Mr. Valukas. I presume it is the rate in which something 
fails.
    Mr. Barton. OK. So if you improve the fallout rate, that 
means you are going to decrease the number of failures. Is it 
important, in your mind, that since they talk about a black 
box, apparently, anything within the black box they don't have 
to be too worried about it as long as everything in the black 
box works as specified, because there, apparently, in 
retrospect, is quite a bit of commentary about, well, we didn't 
really pay much attention because it was all within the black 
box.
    Mr. Valukas. Well, that is the commentary, but the general 
rules are to change fit, form or function, whether it is in the 
black box or otherwise, the part number ought to change. And in 
this situation, particular to this aspect of it which is 
increasing the torque, that would fall within one of those 3 
categories. And I think you can find an explanation, black box, 
but even Mr. DeGiorgio in his interview with us conceded that 
this was a change in fit, form and function, and would have 
required a change in the part number. And the consequences were 
devastating over the years. This was not the only time. That 
issue came up four times, as you properly note, where people 
came back to him and said did something change, and he said no, 
and that is one of the reasons why this took a decade.
    Mr. Barton. Well, do you think that this particular e-mail 
exchange, they knew they had a safety problem and they are 
couching their phraseology differently to hide it, because they 
don't really talk about a torque issue or anything, they are 
talking about a fallout rate and--within the black box. Do you 
think this was intentional or----
    Mr. Valukas. No.
    Mr. Barton. You don't.
    Mr. Valukas. I don't. Let me put it this way. We have not 
been given access to the Delphi witnesses. We have not been 
permitted to interview them, and our receipt of documents has 
been limited from them. On the GM side of the process, the 
answer to that question is no.
    Mr. Barton. OK. And, Ms. Barra, In the time that I don't 
have anymore, my question to you, Mrs. Blackburn tried to 
elucidate an answer from you about a change in culture, and the 
fact that, even where they are making these specification 
changes, that they didn't meet the specification as, wasn't 
that a problem and shouldn't you make sure that everything 
meets your specifications. And your answer was, well, if the 
overall system works, it is OK. Now, to me, that doesn't 
represent a cultural change. And I have talked to the General 
Motors, the engineers and management team in my district down 
in Arlington, and they are vocally insistent that they are not 
going to use any part in their plant that doesn't meet the 
specification and operate just as it is supposed to.
    Ms. Barra. I totally agree with you. A part needs to 
operate just as it is supposed to, and there has been 
significant change. First of all, everything that is done, it 
is documented, it has gone through a validation process, it has 
also gone through a systems integration, so it is much more 
rigorous. And knowing that the part is good, and that the 
system is going to act, or the vehicle is going to perform 
safely and with quality. And as it relates to making a part 
change, absolutely acceptable. I ran an assembly plant and I 
totally agree with the people that you have talked to at the 
Arlington plant. If you do not have a documented part number 
you shouldn't be changing parts. So their answer is absolutely 
correct, and I appreciate the fact that they are committed to 
do that.
    Mr. Barton. Thank you, Mr. Chairman.
    Mr. Murphy. Thank you. The gentleman's time has expired.
    Recognize Mr. Butterfield for 5 minutes.
    Mr. Butterfield. Thank you very much, Mr. Chairman. You 
know, Mr. Chairman, it is an unspeakable tragedy that so many 
families have suffered as a result of these shortcomings of 
General Motors, and some of these families are with us today. 
And as feeble as it may be, I simply want to offer my 
condolences to the families who have been affected.
    Let me start with you, Ms. Barra. Is it Barra or Barra?
    Ms. Barra. It is Barra.
    Mr. Butterfield. OK. We have had a little debate about that 
back here, but, Ms. Barra, Mr. Boyer, who is on the public 
record as stating that the company has hired 40 new defect 
investigators. How many of these individuals will be new to the 
company?
    Ms. Barra. I can't speak specifically, but I can tell you 
that I believe most of them came from within the company, 
they--but they came, and I know how the selection process was, 
and they were some of our very best engineers across the 
company, so they knew a broad--together, collectively, they 
knew a broad array of parts and systems in the vehicle.
    Mr. Butterfield. Well, our information----
    Ms. Barra. They were handpicked.
    Mr. Butterfield. Our information and in acting with your 
company suggests that all 40 of these new individuals would be 
promoted from within the company. Do you dispute that?
    Ms. Barra. As I said, I believe--I knew the lion's share--I 
can't tell you if one or two came from outside. I know we did 
an exhaustive search inside to get some of the best and most 
experienced engineers into this role.
    Mr. Butterfield. Well, I think you have heard the theme 
throughout this committee today on both sides of the aisle that 
we are talking about a new culture within the company----
    Ms. Barra. Yes.
    Mr. Butterfield [continuing]. And I would strongly suggest 
that you look at bringing in some outside fresh blood to run 
that part of the company.
    How many vehicles has General Motors recalled since the 
Cobalt recall began in February? I have heard 40 million, but I 
know that is over a period of years, but how many actually have 
been recalled since February of this year?
    Ms. Barra. I have to add up the count. I don't know if we 
have that information.
    Mr. Butterfield. Hundreds of thousands?
    Ms. Barra. It is several millions. In the tens of millions.
    Mr. Butterfield. And let me ask you this. How are vehicle 
owners informed by GM about these recalls? Do you e-mail them, 
do you mail them, how do you do it?
    Ms. Barra. Well, first of all, we follow what the 
regulations are, the NHTSA process. So we send a letter, but we 
have gone above and beyond that. We have sent additional 
letters in addition to the ones that are required as part of 
the NHTSA process. We have also gone out on social media, we 
have also hired more than 100 people to work in our customer 
engagement centers to call and reach out to these individuals. 
We also know dealers who have been great partners in this, 
have, in many cases, gone out and contacted or received calls 
and explained the situation.
    Mr. Butterfield. So you go beyond. You go beyond----
    Ms. Barra. We have gone well beyond----
    Mr. Butterfield [continuing]. Just sending a letter to the 
address of record?
    Ms. Barra. Absolutely.
    Mr. Butterfield. That is reassuring. When you communicate 
with vehicle owners, are they informed of the seriousness of 
these safety hazards posed by the ignition switch?
    Ms. Barra. Yes, in fact, very specifically in the letter it 
states that to operate the vehicle safely, that you need to 
have the key or just the key in the ring, and take everything 
off your key ring. We have also to these individuals, as you 
know, made, if they are still uncomfortable, although we have 
demonstrated and NHTSA has reviewed and said it is safe to 
operate the vehicles this way, again, with the key or the ring, 
if the individual still is uncomfortable, because we are 
customer-focused, we are putting these individuals into loaner 
or rental vehicles.
    Mr. Butterfield. And what percentage of the people who were 
notified actually bring the cars back into the dealer?
    Ms. Barra. Well, in general, we are in the 80s, and I have 
been told we are one of the highest of how we complete recalls, 
but in this case, we are still working through it.
    Mr. Butterfield. And once there, how long does it take to 
get it fixed?
    Ms. Barra. It is a matter of an hour or so.
    Mr. Butterfield. Just a couple of hours, it can----
    Ms. Barra. Right.
    Mr. Butterfield [continuing]. It can get done. It seems 
like there is a large volume of recalls, according to your 
testimony, and I am more concerned about how safely and timely 
can these corrections be made. I mean----
    Ms. Barra. Well, we have----
    Mr. Butterfield. With the large volume that----
    Ms. Barra. Yes.
    Mr. Butterfield [continuing]. You are talking about.
    Ms. Barra. Right.
    Mr. Butterfield. You are talking about millions of cars.
    Ms. Barra. Right, but if you look at----
    Mr. Butterfield. Yes.
    Ms. Barra [continuing]. In some cases it is replacing a 
part, in some cases it is as simple as making sure a connection 
was made. In other cases, for instance, in some of our 
crossover vehicles, over time a crimp of an electrical 
connection where it is simply going back and re-crimping and 
soldering that. We have been exhaustive, and I know it sounds 
like a large number of vehicles, it is, but we want to do the 
right thing for our customers. To my knowledge, this is the 
most expansive, comprehensive review we have done, because in 
some cases we are acting on vehicles where there is no TREAD 
data even to support there is an issue, but as we went in and 
looked at the subsystem performance, we wanted to make sure we 
were acting safely.
    Mr. Butterfield. One dealer can do dozens in a single day?
    Ms. Barra. I am sorry?
    Mr. Butterfield. One dealer, one large dealer, could do 
dozens in a single day.
    Ms. Barra. Dozens. Actually, we have dealers that are 
extending their hours and their service department to be 
responsive to customers to get these repairs made.
    Mr. Butterfield. Finally, is GM currently investigating 
ignition systems of any other product lines which have not been 
recalled to date?
    Ms. Barra. We will continue, as I said, we plan to be 
substantially complete by the end of this month with the 
additional people we have put in, but we are going to continue 
until we are confident that if there are any issues on our 
vehicles, whether it is a different safety system or ignition 
switch, that we have reviewed it.
    Mr. Butterfield. Thank you. Mr. Valukas, we live by the 
clock up here, I am sorry.
    Mr. Murphy. Thank you.
    Mr. Butterfield. We will get you next time.
    Ms. Murphy. Now recognize Dr. Burgess for 5 minutes.
    Mr. Burgess. Thank you, Mr. Chairman. And, Ms. Barra, if we 
could just continue on that line of questioning that Mr. 
Butterfield was pursuing. How are your dealers, how are they 
holding up under what must be a massive onslaught of people 
needing their cars fixed?
    Ms. Barra. Our dealers are doing a tremendous job of 
supporting the customer. As I said, we have many dealers who 
are reaching out. We have had dealers who had a customer that 
was several miles away, for instance, there was one who they 
were concerned because their daughter had the vehicle and there 
wasn't a dealership close by. The dealer went back and forth 
and got the vehicle, got the repair made, and gave a loaner. So 
I can't be more proud of how our dealers are supporting the 
customer.
    Mr. Burgess. But yet, you have millions of cars that need 
to get in and be attended to. Pretty hard to provide a loaner 
car for that population.
    Ms. Barra. Well, first of all, most dealers for a simple 
repair have loaner programs. It depends on the dealer and the 
issue, but on specifically the Cobalt and that population of 
vehicles, we are providing loaners or rentals, and we have 
worked with rental companies to make sure they have enough 
vehicles to do that, but again, in many of these cases, even 
though the vehicle is recall, it is a very simple visual 
inspection to know if the vehicle is OK or not, and the dealers 
are very equipped to do that with their service technicians.
    Mr. Burgess. And I just recall being on this committee when 
we went through this with Toyota back in 2009, the Toyota 
dealership in the district that I represent had extended hours, 
would stay open until late at night to accommodate people who 
otherwise were working and couldn't get in. And you feel that 
that is the case currently with the GM dealers?
    Ms. Barra. I absolutely do. I have spoken to hundreds of 
dealers, and I know our North America president, Alan Batey, 
has also--we have regular communications----
    Mr. Burgess. But----
    Ms. Barra [continuing]. As they share with----
    Mr. Burgess [continuing]. Let me interrupt just because my 
time is going to run out. How are you doing--what seems to be 
the chokepoint in this? Is it getting the part to the dealer?
    Ms. Barra. Actually, we have produced and shipped over 
400,000 parts. The challenge is getting the customer to come in 
and get the vehicle repaired, and that is why we have employed 
a lot of innovative ways to do that, and that is why the 
dealers are reaching out.
    Mr. Burgess. And yet, in a story in the New York Times 
either yesterday or today, people talk about receiving multiple 
postcards, you have to come in and get your car fixed, and they 
say I have tried but they don't have the part available for me. 
Are we going to start hearing less and less of those stories?
    Ms. Barra. I think we should because we start another line 
within a week, so we are continuing to ramp up, but right now, 
we do have the parts, but we have tried to be incredibly fair 
and that--in a first-come-first-serve basis as customers raise 
their issues. Some of the postcards that we have sent are 
because they are required on a frequency by law, and we are 
complying with the law.
    Mr. Burgess. Thank you.
    Mr. Valukas, let me ask you a couple of questions. And I 
think I understood from your introduction that you are a trial 
attorney, is that correct?
    Mr. Valukas. I am.
    Mr. Burgess. I mean I have to tell you, at some point, were 
you just pulling your hair out over some of these things that--
as your investigation churned through this information? Let me 
specifically--you have the binder in front of you. I don't 
have--mine is not divided up into tabs, but page 119----
    Mr. Valukas. Of the report?
    Mr. Burgess. In your report.
    Mr. Valukas. Thank you.
    Mr. Burgess. Here is a paragraph, witnesses have 
inconsistent recollection as to whether the product 
investigations group became involved in the Cobalt airbag non-
deployment issues at this stage. Everest reports that in April 
'07, the FDA group transitioned the Cobalt airbag matter to the 
PI Group where it was taken on by an engineer named Eric 
Buddrius. Documents in Buddrius' file indicate he was working 
on the issue, and a May 4, 2007, investigation status review 
presentation planning worksheet states that he was scheduled to 
present on an issue described as Cobalt airbag discussion item. 
Buddrius had no recollection of the involvement. I mean they 
were right up to the point where they had an answer, and now 
this guy doesn't even remember working on it. Was that pretty 
frustrating from a trial lawyer's perspective?
    Mr. Valukas. One of the key problems we found is the lack 
of documentation, which led to lack of accountability. And I 
think a classic example of that was what happened in 2005, when 
we went back to find out why did they close the investigation 
into the Cobalt issue, and we found ourselves in a position 
where there were no notes with regard to the matter, everybody 
at the meeting pointed to somebody else in the meeting has 
having responsibility for having closed the matter, but we 
could not ascertain who actually had that responsibility, or 
what were the circumstances which caused the closure to take 
place.
    Mr. Burgess. All right.
    Mr. Valukas. And that lack of accountability is reflected 
in so many of those areas. When we went back, we were dealing 
in many instances with no documents.
    Mr. Burgess. Well, let me just ask you, because I am going 
to run out of time. The 15 individuals have been terminated by 
General Motors, is that correct, but we can't know those 15--as 
we read through this report, we can't know the names of those 
15 individuals because of employee privacy concerns, is that 
correct?
    Ms. Barra. It has been submitted to the committee.
    Mr. Burgess. It has been submitted to the committee?
    Ms. Barra. It has been--but we have asked that it be 
confidential to respect the----
    Mr. Burgess. All right----
    Ms. Barra [continuing]. Privacy.
    Mr. Burgess [continuing]. Thank you for that. Can you just 
tell us what was the basis for termination, because I go 
through this, it looks like a lot more than 15 people should 
have been terminated.
    Ms. Barra. Yes, and there was a senior group of my leaders 
that we looked, we read the report, and we were very thorough 
in looking at those who we believed didn't take the actions 
they should, and then those who simply didn't move with a sense 
of urgency. The people closest to us over a repeated period of 
time are those who are no longer with the company.
    Mr. Murphy. Thank you.
    Mr. Burgess. Thank you.
    Mr. Murphy. All right. Now recognize Mr. Green for 5 
minutes.
    Mr. Green. Thank you, Mr. Chairman, and thank you for doing 
the follow-up hearing.
    Ms. Barra, you said that you had shipped 400,000 parts. Was 
that for the ignition issue?
    Ms. Barra. Yes, I was specifically referring----
    Ms. Green. How many----
    Ms. Barra [continuing]. To the ignitions----
    Mr. Green. How many do you estimate were recalled or the 
need--how many were recalled, because I keep hearing 16 
million, but I know there are other----
    Ms. Barra. OK.
    Mr. Green [continuing]. Issues.
    Ms. Barra. Of the specific ignition switch cylinder, 
because it is a kit now that we put together, the total number 
of vehicles produced globally was over 2.6 million. Now, we 
know not all of those are still in service today, and we have 
built kits to service the 2.6 population. We are already over 
400,000. We will be complete by August 4--or, excuse me, 
October 4.
    Mr. Green. OK. You have been vocal about GM's effort to 
change its corporate culture, which you describe in our last 
hearing in April as a cost culture. Mr. Valukas, can you 
describe some of the problems you saw with the corporate 
culture in your report, talk about the GM nod and the GM 
salute. What do these refer to?
    Mr. Valukas. Well, let me be specific on that. The GM--
without using those phrases, you had a situation where it took 
a plaintiff's lawyer to do the simple thing of comparing two 
switches; one from 2006 with one from 2009, to find out that GM 
had manufactured two separate switches. No one goes back to 
revisit previously-made decisions, so they are stuck in if it 
is the decision we have made, we don't go back and revisit and 
look to see if there is something else. We have a situation 
where you had silos, you had people within GM who had certain 
levels of information that was not shared with other 
individuals, and so when the other individuals found that 
information, for instance, the Indiana report, Officer Young's 
report, that information was ultimately supplied by third 
parties outside of GM. GM did not know that they had that 
information within their own files, at least some of that 
information, on files and some of it was in public records. You 
had circumstances where, among other things, you have a 
sensitivity to the use of the word stalls, which might have 
created for someone the impression that maybe we stay away from 
using words which will force people to ask hard questions, 
rather than taking an approach in which you ask the hard 
questions and----
    Mr. Green. OK. OK.
    Mr. Valukas [continuing]. Take whatever those answers are. 
So we found instances of that which had a significant impact 
on--at least in terms of the finding information, impact on how 
the investigation of the Cobalt switch----
    Mr. Green. Well, it sounds like the old GM's culture was 
mostly let us not talk about a problem. Is that what it is, 
without notes, and I understand we are both lawyers, you may 
say, well, I don't want to take notes because somebody can 
subpoena them, so GM just put them under the rug and now it is 
coming home to roost.
    Ms. Barra, in our last hearing, you referred to the new GM 
in your responses to you questions, the culture would change 
under your leadership. You testified that GM created a new vice 
president of global vehicle safety, it was filled by Jeff 
Boyer, and I know you have been with GM a number of years, and 
Mr. Boyer has been with GM?
    Ms. Barra. Yes, he has been----
    Mr. Green. And so you all both worked for the old GM. Can 
you tell me what is going to be different in the new GM, even 
though everybody in the 40 inspectors that Congressman 
Butterfield talked about, are GM. You need a culture change and 
not just verbiage.
    Ms. Barra. I completely agree with you, so it will be the 
actions we take, the actions we are taking, but I can also tell 
you that the men and women of General Motors, the vast majority 
come to work every day and they want to do a good job. They 
heard me talk about this report. They are as deeply troubled as 
I am, and they are taking action, and we are creating a 
culture. I have evidence of it every day where employees are 
coming forward, they want to do the right thing, they want to 
produce high quality safe vehicles.
    Mr. Green. Well, and I only have a minute, and I agree, but 
that needs to continue because I also know how it works on the 
shop floor, that, oh, don't talk about that, just do your job, 
and that is what got GM into this position.
    Your company set up a compensation fund for victims of this 
fault, in recognizing that no amount of money can replace a 
loved one or can compensate for someone who is terribly 
injured, how would that fund be administered, and what in the 
mere total do you expect to compensate the victims with? Have 
you announced a total for that?
    Ms. Barra. We haven't announced a total. Again, it is being 
run by Ken Feinberg, who is known as an expert in this area. He 
will have complete----
    Mr. Green. I am familiar with Mr. Feinberg from the----
    Ms. Barra. He will----
    Mr. Green [continuing]. BP.
    Ms. Barra [continuing]. Have complete independence, but I 
think it is important to note that General Motors wants to 
reach with this compensation program everyone who lost a loved 
one due to this issue, or suffered serious physical injury, and 
that is what we have communicated to Mr. Feinberg.
    Mr. Green. Well, I am out of time, but there are a whole 
lot of GM customers out there who are frustrated because over 
the decade have been loyal, but now we are seeing the 16 
million recalls. There is a problem, and I hope you will have 
it fixed.
    But, Mr. Chairman, I would hope we would continue this to 
make sure it is fixed.
    And I yield back my time.
    Mr. Murphy. Gentleman yields back.
    I now recognize Dr. Gingrey for 5 minutes.
    Mr. Gingrey. Ms. Barra, I want to ask you a question about 
the situation in the Cobalt. If one of my two, or twin, 16-
year-old granddaughters driving in the Cobalt and inadvertently 
the ignition turns to the accessory position, if they, who just 
got their driver's license 3 months ago, I would think that 
their initial reaction would be to try to turn the car back on, 
start the car back again, although it is in drive and it is not 
in neutral, would the car start back up?
    Ms. Barra. Well, first of all, if they were driving the 
vehicle and they had just the key in the ring, this condition 
shouldn't happen.
    Mr. Gingrey. No, but if it did happen.
    Ms. Barra. So----
    Mr. Gingrey. Let us assume that it did happen.
    Ms. Barra. OK, so then you have to restart the car. I 
guess----
    Mr. Gingrey. I think the answer is----
    Ms. Barra [continuing]. You would have to go----
    Mr. Gingrey. You would have to put it in neutral----
    Ms. Barra. Put it in neutral or park, right.
    Dr. Gingrey [continuing]. Before it would start. And that 
would be pretty hard for a 16-year-old, inexperienced driver to 
even think of, with an 18-wheeler bearing down on them. And as 
I listen and the other hearing that you were at several weeks 
ago, General Motors has got to have the best engineers in the 
world, whether they are electrical engineers or mechanical 
engineers, probably both. How in the world would they not know 
that when the vehicle, when the ignition inadvertently, because 
of the low torque, and it shifts to the accessory position, the 
engine stalls, that that would also deactivate the airbags? I 
would think that that kind of testing is done to a fare-thee-
well before a vehicle is approved for sale. I mean, well, how 
could they not know that?
    Ms. Barra. I can't speculate on why they didn't know. What 
I can tell you is any time a vehicle stalls now, we consider it 
to be a safety issue, and if we find that there is a 
malfunction in a part or a defect in a part that causes the 
stall to occur, we are going to----
    Mr. Gingrey. Well, I would say a safety issue indeed if a 
side airbag would not inflate if somebody got T-boned in the 
middle of an intersection when this happened, and a young 
person, even an experienced driver of 40 years, is not going to 
think that quickly.
    Mr. Valukas, and I think you alluded to this a few minutes 
ago, if not for the Brooke Melton lawsuit, and Brooke's--I 
can't see the back of the room but her picture may be up there 
on the wall. She is in my district in Paulding County, Georgia, 
11th Congressional District of Georgia. If not for the Brooke 
Melton lawsuit, and she was killed, and the fact that her 
lawyers figured out that the ignition switch part from model 
year 2008 was different from model years 2005, '06 and '07, in 
the Cobalt, would we even know about this ignition switch 
problem today? Would we even be aware of it?
    Mr. Valukas. The answer is yes, because there was an open 
and, at that point, significant investigation going on at that 
particular point, and certainly, there was information and 
evidence that was accumulating as they were going forward, 
pointing to the fact that they had these non-deployments, 
pointing to the fact they had fatalities, and pointing to the 
fact----
    Mr. Gingrey. Well----
    Mr. Valukas [continuing]. That the switch had something to 
do with it.
    Mr. Gingrey. Well, that smacks----
    Mr. Valukas. I mean----
    Mr. Gingrey. That smacks of a big cover-up to me. And after 
General Motors learned of this change, it took months for GM 
outside experts to confirm that there had been a change. Why 
did this take so long?
    Mr. Valukas. I don't have a good answer for that. I can 
tell you it did take that long. I can tell you that from the 
time of April of 2013, when that deposition took place, they 
knew or should have known at that--or they knew at that point 
that they had two different switches, and they gave it to Mr. 
Mellady, the expert, and he came back with his confirmation of 
what they were given in the way of information in April, and 
that took until almost October.
    Mr. Gingrey. Yes, it is amazing, and that when the issue 
was presented to decisionmakers in December, no recall was 
announced. It took another month and a half before GM finally 
decided to recall the Cobalt.
    What information was missing in December that prevented GM 
from issuing a recall at that time? Ms. Barra, can you tell me?
    Ms. Barra. I can't talk about the specific information. I 
think we do know that not all the information was presented at 
that meeting. I would say when the right information was in 
front of that group, they did make the right decision, but I 
would also say, and I have said publically----
    Mr. Gingrey. Well, let me just say in my concluding 35 
seconds, this whole sequence, this whole sequence, from the 
time the company learned of a potential difference in the parts 
during the Melton litigation, to the time the recalls were 
announced, took 10 months. Ms. Barra, why the foot-drag? Is 
this typical of GM's investigations into a product concern, and 
how do you intend to change this?
    Ms. Barra. Well, we already have with the way we are 
working through recalls today. We have changed that process. It 
is expedited, and the most senior levels of the company are 
involved in it, and I think, again, although I don't want to do 
recalls, we are going to do what is right for our customers, 
and we are demonstrating it today.
    Mr. Gingrey. Thank you. And I yield back.
    Mr. Murphy. I should ask a clarifying question because the 
doctor referred to it, and a number of Members have asked with 
regard to the word cover-up. Can you define what cover-up 
means, Mr. Valukas?
    Mr. Valukas. In this instance, what we looked for was any 
evidence that individuals knew that they had a safety issue, 
and took steps to conceal the fact that they had a safety 
issue. That is what we were looking for in terms of cover-up. 
And then we interviewed individuals, we asked them questions to 
gather the facts to see whether, in fact, that had taken place, 
and we sought to test those facts against the documents that we 
were reviewing. So if someone knew something on a given day, we 
identified that and we took steps to see whether they concealed 
what they knew from other individuals. We did not find that. 
That is what I am talking about.
    Mr. Murphy. Does your definition also include if people 
slow-walked moving on safety issues----
    Mr. Valukas. If it was a----
    Mr. Murphy [continuing]. Is that also a cover-up?
    Mr. Valukas. If it was a--pardon me, I don't mean to 
interrupt.
    Mr. Murphy. That is OK.
    Mr. Valukas. If it was deliberately done, then it would 
encompass something like that. If it was a matter of someone 
being in a position, for instance, when one of the 
investigators was given the assignment, he was given no 
deadline, he was given no sense of urgency, so he put it into 
the queue with other investigation and it took its time. That I 
would not call a cover-up, I would call that something other 
than that.
    Mr. Murphy. Thank you.
    All right, Mr. Yarmuth, you are recognized for 5 minutes.
    Mr. Yarmuth. Thank you, Mr. Chairman.
    Ms. Barra, welcome back to the committee. When you were 
here on April 1, I told you that a member of my staff had had a 
Chevrolet Malibu that was subject to a recall. She found that 
out by going on the Web site, not through any personal 
notification. And she inquired of the dealership, how she 
should proceed and they said there is no fix, and I presented 
you with that dilemma and you said at the time there is a fix, 
whether it is a check or a replacement of the product, but that 
fix does exist for that specific vehicle. Well, I have here the 
important safety recall that she just received on Monday, so 
that is 2 \1/2\ months after you appeared here on April 1, 
notifying her of the recall, saying that her vehicle may 
experience a sudden loss of power steering assist, and then 
other language, which could result in an increased risk of a 
crash, and also informed her that the part doesn't exist yet to 
fix the product.
    So when you consider that situation, a different vehicle, 
different problem, with the ignition problem that we have 
focused on, and you have already said that many of these 
vehicles will not be fixed, the ignition problem, until 
October, those parts won't be available, what are consumers 
supposed to do when they are going a period of up to 6 months 
or longer without any way to fix their vehicle? How can they 
assess the risk? I don't know what my staffer should do. There 
is no--I mean I see all the pharmaceutical products, the long 
list of possible side-effects, and you have to calculate the 
risk, but would you advise or would you let your son or 
daughter drive these vehicles now with the level of risk that 
you may know more about than we do?
    Ms. Barra. Well, on the Cobalt specifically, we have done 
extensive testing on driving the vehicle with the key or the 
key in the ring, and it has validated that it is safe. We have 
also reviewed that with the technical experts at NHTSA and they 
have concurred. So, in that case, those vehicles are 
demonstrated safe to drive.
    Just in general, if people have concerns, they can go to 
their dealer or they can call our customer engagement center 
and we walk them through the specifics of their specific issue, 
because, again, in many of the recalls that we have done, it is 
not a part replace, it is a visual check, and depending on what 
happens, it would be what needs to be repaired. So each 
individual recall has a slightly different look and feel to it.
    Mr. Yarmuth. So I know you have talked about the 
possibility of loaner vehicles and rental cars and so forth, 
but--and I understand the difficulty with a supplier gearing up 
to produce a part that they may not have made in 4 or 5 years, 
and they have to all of a sudden come up with several million 
of them. We have a part manufacturer in Kentucky in my district 
that services Peterbilt trucks, and I have been to theirs and I 
know how much work they have to do, but again, is there any 
reliable alternative to these consumers who, again, face a very 
important decision as to whether--I mean I don't know what the 
risk--of whether NHTSA has assessed the risk with regard to 
power steering assist, whether that is significant or not, but 
there are a lot of consumers out there, I am sure, who are 
wondering whether they should be driving or not.
    Ms. Barra. Again, I would encourage them to call our 
customer engagement center or talk to the dealer, and we can 
talk about the specific situation.
    Mr. Yarmuth. OK. I have no other questions.
    Ms. DeGette. The gentleman----
    Mr. Yarmuth. Yes, I am sorry, yield to the ranking member.
    Ms. DeGette. I just wanted to ask you a question, Ms. 
Barra, since there is a little time here.
    So you had testified that out of the roughly 2.6 million of 
these cars that were recalled, you guys have sent 400,000 parts 
out to your dealers, is that right?
    Ms. Barra. Produced and shipped.
    Ms. DeGette. I am sorry?
    Ms. Barra. Yes
    Ms. DeGette. Yes, roughly. And as of Monday, it looks like 
about only 177,000 of these vehicles have been repaired. And 
you had testified a little bit earlier--so that is 177,000 
vehicles out of 2.6 million vehicles. And we have talked about 
this before. This is one of our big concerns in this committee, 
is how do we get those folks to take in those recalled vehicles 
to be repaired, and you said you are looking at some innovative 
ways to do that. I am wondering if you could just take a few 
seconds to talk about how GM is trying to get those people to 
take those cars in.
    Ms. Barra. Well, we are doing a lot on social media, and we 
are looking at the populations especially, some of these 
vehicles are older vehicles, so we have done actual research to 
figure out what messages would be most compelling to have these 
individuals come in to get their vehicles fixed. I would also 
say we are, the dealers are working to do specific arrangements 
with each individual to make it as inconvenient or to----
    Ms. DeGette. As convenient.
    Ms. Barra. As convenient as possible, to reduce the 
inconvenience. And so there are a number of steps. You know, 
right now, we are in a----
    Ms. DeGette. Or let me ask you because we are----
    Mr. Murphy. No, we are----
    Ms. DeGette [continuing]. Can you meet the October 4 NHTSA 
deadline?
    Ms. Barra. We are on track. I have talked to the CEOs of 
the companies making these parts, and we monitor it on a daily 
basis.
    Ms. DeGette. OK.
    Mr. Murphy. All right, thank you.
    OK, Mr. Olson, 5 minutes.
    Mr. Olson. I thank the chair. And welcome, Ms. Barra, and, 
Mr. Valukas.
    I approach issues like these from the perspective as a 
Naval officer and a pilot. Leaders in The Navy are called 
skippers. Good skippers give credit for others who do good. 
When good things happen in a squadron, they give credit to 
others. Bad skippers take all--I'm sorry. Good skippers give 
the credit and take all the blame. By that definition, Ms. 
Barra, you are a decent skipper, but people have died because 
of GM's defective product.
    As we knew, and Mr. Valukas' report shows clearly, those 
deaths occurred because our ship, GM, had some problems that 
can't be fixed overnight. As GM's skipper, the burden to fix 
these problems is upon you, ma'am. Squarely upon you, and I 
think you know that. GM has to rebuild its trust with the 
American people, and part of that trust is being 
straightforward on the number of deaths that have occurred 
because of these defective Cobalts.
    You have testified that 13 deaths occurred because of these 
cars, is that right, ma'am?
    Ms. Barra. I have testified that with the information we 
have----
    Mr. Olson. OK.
    Ms. Barra [continuing]. We believe that the ignition switch 
may have been related to 13, but I don't have all the 
information.
    Mr. Olson. OK, because that is a problem because on the 
wall behind you, there are 15 photographs of tragedy and loss 
from Cobalt vehicles.
    Ms. Barra. And that is why we are doing the compensation 
program. It will be independently administered by Mr. Feinberg, 
and I can assure you that I and General Motors want to make 
sure that anybody who was harmed as a result of the ignition 
switch defect is a part of that program.
    Mr. Olson. I will get to that compensation fund later.
    How about injuries? Any number of injuries you think that 
has been caused by defective Cobalt--injuries, not deaths but 
injuries? What is the number? Any idea, ballpark?
    Ms. Barra. Again, I don't have the specific number in front 
of me, but we don't have a complete number because we only have 
the information that is available to us, but again, that is why 
Mr. Feinberg, who is an expert in doing this, and we want to 
have everybody who had suffered serious physical injury or 
suffered the loss of a loved one, we want everyone to be a part 
of this program.
    Mr. Olson. And thank you very much, Mr. Feinberg because, 
as you know, restoring the trust of the American people, part 
of that is having a viable, robust compensation program for the 
victims' families. And I know you have tasked Mr. Feinberg, as 
you have mentioned, to evaluate options for the compensation 
trust fund, my question is, from your opening statements, it 
sounds like GM has not put any limits on Mr. Feinberg. Is that 
true? No limits on the compensation? What is--he has got all 
options out there to determine the compensation trust fund?
    Ms. Barra. I didn't hear the beginning of your question, I 
am sorry.
    Mr. Olson. The question is, you have tasked Mr. Feinberg to 
have this compensation fund, are there any limits upon him 
because he is out there doing whatever he wants to do. I mean 
what are----
    Ms. Barra. He is independent, and he will determine those 
who qualify that meet his protocol and the appropriate amounts.
    Mr. Olson. Will your Board have oversight--have to approve 
his recommendations or----
    Ms. Barra. No.
    Mr. Olson [continuing]. Just--no, so he is----
    Ms. Barra. He is----
    Mr. Olson [continuing]. An independent operator.
    Ms. Barra. He is independent.
    Mr. Olson. Have families that have previously reached 
settlements with GM, will they be eligible for this trust fund?
    Ms. Barra. They are eligible to apply.
    Mr. Olson. How about the families whose claims were before 
GM's bankruptcy, they----
    Ms. Barra. Eligible to apply.
    Mr. Olson. They are eligible as well. How much do you 
expect the fund to be? Any ballpark?
    Ms. Barra. Without knowing the protocol, I can't speculate 
on that. By the time Mr. Feinberg shares with us his protocol, 
then we will have to take an appropriate estimate, but we 
really won't know until the program has been fully 
administered, and we have indicated that we will share the 
number of incidents and also the total.
    Mr. Olson. Is there a chance the fund will be capped, a 
limit?
    Ms. Barra. No.
    Mr. Olson. No chance. OK, I yield back. Thank you, sir.
    Mr. Burgess. Will the gentleman yield?
    Mr. Olson. I will.
    Mr. Burgess. Let me just ask you, Ms. Barra, along the 
lines of do people know how to get in touch with you if they 
are having trouble getting their car fixed?
    Ms. Barra. Again, in the letters that we sent, and we send 
to the the record, we go to Polk and get registration data, and 
that is the best information we have. That is why one of the 
things that would be very helpful is to have a national VIN 
database. That would be incredibly helpful to make sure we are 
reaching them directly. But in the communications that we have 
had, there is information on how to contact us as well as their 
dealer.
    Mr. Burgess. So the message should be, a person should 
contact their dealer?
    Ms. Barra. Well, they can contact our customer engagement 
center. There is also a 1-800 number at the back of their 
owner's manual, but then in addition, we know many people will 
contact their dealer.
    Mr. Burgess. Before this testimony concludes today, could 
you provide us with that 800 number?
    Ms. Barra. Sure.
    Mr. Burgess. A lot of people are watching this hearing, and 
I am getting a lot of activity on Twitter, people wanting to 
know how to get their cars fixed.
    Ms. Barra. Sure.
    Mr. Burgess. So you would help us if you did that.
    Mr. Murphy. OK.
    Mr. Burgess. Thank you.
    Mr. Murphy. Thank you.
    I now recognize Ms. Castor for 5 minutes.
    Ms. Castor. Thank you, Mr. Chairman.
    The Valukas report refers to the Board's commitment to 
improving the quality of GM's vehicles through a bonus plan for 
corporate officers and employees at the executive, director and 
supervisor levels, and part of whether the calculation for 
whether a bonus would be payable was improvement in the quality 
of GM's vehicles.
    Mr. Valukas, do you know what improvement in quality means, 
or how it is quantified for the purposes of the bonus 
calculation?
    Mr. Valukas. I can't give you the calculation. I can tell 
you that within the quality calculation, it is supposed to be 
safety, that the individuals which we interviewed identify 
improvement in quality as relating to the safety issues, so 
that it would include----
    Ms. Castor. So safety is supposed to be a quality----
    Mr. Valukas. Absolutely.
    Ms. Castor [continuing]. Component, but how is that 
quantified?
    Mr. Valukas. I don't have an answer for you on that.
    Ms. Castor. OK. Ms. Barra, did you receive bonuses through 
this bonus program during the last decade while the ignition 
switch issues were ongoing with GM?
    Ms. Barra. There were many years where there was no bonus 
paid, but there are some years where there was. Not all of 
those years there was quality, but I can tell you that the 
quality components, one aspect of it is, is external surveys in 
which safety is an element of that.
    Ms. Castor. How many years did you receive those bonuses?
    Ms. Barra. I would have to go back and check.
    Ms. Castor. OK, so you will provide those to the committee?
    Ms. Barra. Sure.
    Ms. Castor. Thank you. And, Ms. Barra, will GM's bonus 
program be revised to include an explicit safety component?
    Ms. Barra. It already has quality that has safety as a 
piece of it. I will commit though, I will go back and review to 
make sure it is explicit.
    Ms. Castor. Because Mr. Valukas just said he reviewed it 
and he is not certain how expansive that is, and what really 
goes into considerations of safety.
    Ms. Barra. I will make sure it is explicit. It is a good 
suggestion.
    Ms. Castor. OK. Ms. Barra, will GM's compensation structure 
for all employees, including those below the leadership levels, 
now include a safety component?
    Ms. Barra. Again, when you speak of all employees, 220,000 
employees, or over 200,000 around the world, and we comply with 
the different laws in those compensation programs, but we have 
sent a strong signal that quality is important, and that 
represents 25 percent across all levels.
    Ms. Castor. I would recommend that, as part of your 
overhaul for all employees to encourage considerations of 
safety, that it is made much more explicit to all of those 
employees. In the past, GM has put into place incentives for 
high-level employees to make improvements. If GM is serious 
about its new focus on safety, there should be stronger 
incentives in place for executives and all of the other GM 
employees, at the very least, to identify safety problems and 
improve the safety of all GM's vehicles.
    And now I would like to ask about the adequacy of the 
recall. GM has assured the public that the replacement part for 
the recalled vehicles will fix the defect; low torque that 
causes the ignition switch to turn too easily from the run 
position to the off or accessory position. Ms. Barra, I hope 
you can assure me that this is the case?
    Ms. Barra. It has been validated extensively, and then 
NHTSA has as well reviewed it.
    Ms. Castor. But here is my concern. There seemed to be two 
problems with these vehicles' ignition switches. Issue number 
one is that the force required to turn the switch is too low. 
And issue number two is that a driver's knee can hit the key or 
key fob and inadvertently turn the switch to the off position 
because of it is placed too low. The fix to the recall will be 
to install a new ignition switch with higher torque, requiring 
more force to turn off the switch. Is that correct?
    Ms. Barra. Right, but if you look at the switch, the 
cylinder and the key, and then you look at how that works as a 
system, it has been validated to not only talk about the issue 
that you are talking about, about turning, but also the 
potential knee interference. Both have been validated.
    Ms. Castor. What will the torque specification that the new 
switches will make? What is the new torque specification?
    Ms. Barra. Well, the specification is 20 plus-or-minus 5, 
but the more important thing to look at is the overall 
performance of the system, and that is what we have done.
    Ms. Castor. Is that 20 newton centimeters?
    Ms. Barra. It is 20 newton centimeters, yes.
    Ms. Castor. And do you know how GM arrived at that 
specification?
    Ms. Barra. Well, that was a specification, but we have gone 
back and tested extensively with varying levels of keys on 
rings, and with varying heights of people--size of people. It 
has been an exhaustive testing----
    Ms. Castor. Well, here is our----
    Ms. Barra [continuing]. That has been done.
    Ms. Castor [continuing]. Concern, because when the 
committee interviewed several GM engineers, Mr. DeGiorgio, Mr. 
Altman and Mr. Stouffer, they all told us they had no idea of 
the basis for that specification. And GM has received multiple 
reports indicating that the placement of the ignition switch in 
these vehicles could cause a driver's knee to hit the key or 
the key fob and turn off the switch, isn't that right?
    Ms. Barra. Neither of those individuals have been a part of 
the company as we have done, or been involved in, all of the 
extensive testing and validation that we have done specifically 
with the new product integrity organization, so they are really 
not in a position to comment.
    Ms. Castor. But certainly, that would raise a concern if 
your former engineers continue to have concerns over the fix.
    Ms. Barra. Well, I don't find Mr. DeGiorgio credible, and I 
personally reviewed the testing that has been done by very 
experienced, seasoned engineers, and I am confident that the 
right validation has been done of the system in the vehicle.
    Ms. Castor. I yield back.
    Mr. Murphy. Thank you.
    Now recognize Mr. Griffith for 5 minutes.
    Mr. Griffith. Thank you, Mr. Chairman.
    Ms. Barra, we have talked a little bit about the 
compensation trust fund, and you have indicated that Mr. 
Feinberg is going to set parameters, but you don't have those 
yet. He is going to determine who is eligible, and he is going 
to make the determination as to how much they are eligible for. 
Is that correct?
    Ms. Barra. That is correct.
    Mr. Griffith. And do you know if he is going to determine--
because most people have focused just on the airbag deployment, 
and your list of 13 that you know of at this point only 
includes airbag deployment issues. Do you know if he is looking 
at other parameters?
    Ms. Barra. We have told him that we want to make sure 
anybody who suffered harm, either lost a loved one or suffered 
serious physical injury because of the defect with the ignition 
switch, that they should be a part of the program.
    Mr. Griffith. So you acknowledge what Mr. Gingrey was 
getting to earlier, and that is, if you are traveling down the 
highway at a fairly good rate of speed, whether it be 48 miles 
or more, or 35 miles an hour, and all of a sudden your car goes 
into a stall or the ignition turns off, you have to put that 
into neutral and restart it, that is going to have been 
responsible for a number of the accidents that took place, 
whether or not the airbags were deployed or, in fact, even if 
the airbag not being deployed didn't cause the death or injury, 
there might still have been an injury as a result of that. You 
acknowledge that?
    Ms. Barra. If the ignition switch was part of the issue, we 
want them in the program. And there are other incidences.
    Mr. Griffith. So then I have to question why you have one 
of the two folks in the accident that was referred to in 
Trooper Young's accident report, one of those two individuals 
is on the list of 13, but Natasha Weigel is not, and that 
raises the question, because she was in the backseat. So the 
airbag didn't affect her, but clearly that accident may very 
well have been the result of the fact that you had a young 
driver, as pointed out by Mr. Gingrey, who suddenly finds 
themselves in an emergency situation on the highway, going 48 
miles an hour, and they don't have an engine that works 
anymore. And you would agree that if the engine is not working, 
if the power is off, you don't have power steering anymore 
either, do you?
    Ms. Barra. We were clear about the 13, but again, we want 
to get everybody who was affected, and that is what we are 
focused on. And so, again----
    Mr. Griffith. And you want to make sure that everybody is 
fully and fairly compensated, is that correct?
    Ms. Barra. That is correct.
    Mr. Griffith. Then I have to ask you this question, Ms. 
Barra. Why are your lawyers still trying to seek protection in 
the bankruptcy court?
    Ms. Barra. We are not going to revisit those decisions. I 
think what we are doing is going above and beyond with this 
compensation program to get to the people. This was a unique 
series of mistakes that was made over a long period of time, 
and we feel it is the right thing to do to----
    Mr. Griffith. So you feel it is the right thing for GM to 
continue to ask your bankruptcy lawyers to defend them and get 
the shield from the bankruptcy court in the bank--in that 
court, and not have to deal with these cases that come up, and 
to only let the only solution be Mr. Feinberg, if there has not 
already been a settlement, isn't that correct?
    Ms. Barra. Mr. Feinberg----
    Mr. Griffith. Yes or no.
    Ms. Barra. Mr. Feinberg's program is a voluntary program, 
otherwise people have the same rights they have today.
    Mr. Griffith. They have the same rights, but you are trying 
to block those rights in the bankruptcy court, yes or no?
    Ms. Barra. Our intent is to do a compensation program, is 
to do the right thing for these individuals.
    Mr. Griffith. But you are not instructing your lawyers to 
back off of their claims in the bankruptcy court, that you want 
to be shielded in the bankruptcy court from any claims that 
these outside parties might bring. So if Mr. Feinberg's 
parameters don't fit, but a competent court might find that 
they should fit, not going to matter to you because you have 
the bankruptcy protection. I will move on to another question.
    I am concerned a little bit about the fact that your legal 
department didn't pick this up, and I want to know were any of 
the lawyers fired for not being diligent?
    Ms. Barra. I have stated that there were four different 
functions in which individuals were fired at all levels of the 
company, legal being one of them, engineering, quality and 
public policy.
    Mr. Griffith. OK, because it did concern me that Trooper 
Young's report was sitting in the GM files in the legal 
department for a period of about 6 years, and only one person 
opened the file during that time period, and that was a legal 
assistant.
    Let me ask you this. Can the lawyers, and I think they 
ought to be, but can the lawyers start a safety investigation?
    Ms. Barra. Anyone in the company can raise a safety issue. 
We want them to----
    Mr. Griffith. Yes.
    Ms. Barra [continuing]. Thank you, they are more than able 
to do that.
    Mr. Griffith. And in this case, the lawyers didn't do that, 
is that why one of them might have been fired, or some of them 
may have been terminated?
    Ms. Barra. You know, clearly there were people that didn't 
share information to pull all the pieces together in this, and 
it is unacceptable, and those individuals that were in the best 
position to share are no longer with the company. And we are 
strongly encouraging everybody in the company to raise issues. 
I will tell you specifically----
    Mr. Griffith. All right, I am about to run out of time, so 
I appreciate that, but let me just state this in closing. If GM 
truly wants to compensate everybody who has been harmed, fully 
and fairly, they ought to ask their lawyers to stop asking the 
bankruptcy court for bankruptcy court protection, and let these 
matters work their way out.
    Thank you. Yield back.
    Mr. Murphy. Gentleman yields back.
    Now recognize Ms. Schakowsky for 5 minutes.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    The Valukas report identifies Mr. Ray DeGiorgio, who you 
said, Ms. Barra, has no credibility, that the GM design release 
engineer, that was his title, as being almost solely 
responsible for key decisions to approve the deadly ignition 
switch in 2002, and to modify it in 2006.
    Mr. Valukas, your report states that one of the key 
failures was ``the decision by a single engineer who did not 
advise others of his decision to accept an ignition switch with 
full knowledge that it fell well below GM's own 
specifications.'' Is that correct?
    Mr. Valukas. Right.
    Ms. Schakowsky. The implication here is that Mr. DeGiorgio 
acted alone, but the report describes problems associated with 
the ignition switch, aside from low torque, many of which were 
known as early as 2001, according to the report, the ``entire 
electrical concept needed to be redesigned''. The switch had 
significant problems that were known to GM. In his interview 
with the committee, and at this point I just want to 
congratulate the staff of our committee for the amazing work 
that they did independently to investigate all these issues, 
that in his interview with the committee, Mr. DeGiorgio told 
committee staff that he met with his superiors around February 
2002 to inform them that the ignition switch would be delayed. 
Attendees at the meeting included the vehicle's chief engineer, 
the program engineering manager and electrical directors. It 
was clear this switch was getting a lot of attention.
    So, Ms. Barra, is it your belief that one engineer, Mr. 
DeGiorgio, unilaterally approved a part that had been plagued 
by problems from the start?
    Ms. Barra. The basic issue is that the switch that he 
approved to go into production did not meet the performance 
requirements. That was the first mistake.
    Ms. Schakowsky. And it was DeGiorgio's alone?
    Ms. Barra. He was the one responsible for it.
    Ms. Schakowsky. Knowledge of the problem is important. 
Torque problems plagued the switch from the start, and the 
Valukas report says in 2006, Mr. DeGiorgio, again, unilaterally 
approved changes to the switch to increase the torque. Mr. 
Valukas' report notes ``there is no evidence that DeGiorgio 
told others at GM, including engineers on the Cobalt program, 
about the spring change to the ignition switch that he 
authorized in April of 2006.''
    So, Mr. Valukas, the report does note that other GM 
employees had received documents describing the ignition switch 
change as early as June 2006, and that these documents clearly 
indicated that the switches used in pre-2007 models were not 
within specifications. Is that correct?
    Mr. Valukas. The answer to that question is there were e-
mails which were forwarded to other individuals which, 
contained within those e-mails, after the change was made, 
information about the fact that the torque had changed. We 
interviewed those individuals. Those individuals were by and 
large in the warrantee area. They were looking at something 
that--it meant nothing to them as they--the two that we were 
able to locate and find, it was not--they were totally unaware 
of the issues concerning the switch not deploying any aspect of 
it. So the one individual who did know all of the facts and had 
that information was Mr. DeGiorgio. The other engineers who 
were on this e-mail chain, it meant nothing to them.
    Ms. Schakowsky. OK. But there is an e-mail----
    Mr. Valukas. Yes.
    Ms. Schakowsky [continuing]. I am holding it here, cited in 
your report, discusses implementation of the new----
    Mr. Valukas. At page 102 and----
    Ms. Schakowsky. I believe that is right. And the quote is 
``increased torque forces to be within specifications'', and it 
was sent to five GM employees on June 2, 2006. But we have also 
obtained another document that was not included in your report, 
and this document indicates that another GM contract engineer 
may have approved the 2006 change. It is a production part 
approval process report obtained by Delphi through GM's global 
quality tracking system. It is dated June 1, 2006, and it lists 
a GM quality--supplier quality engineer. The document has a 
section labeled ``supplier quality engineer notes'', and these 
notes read--this is a quote, ``new PCB and spring plunger 
implementation for performance improvement. Part approved per 
supplier. Submitted, warrant and GM 3--3660.''
    So, Mr. Valukas, have you seen that report, the global 
quality tracking system?
    Mr. Valukas. Yes.
    Ms. Schakowsky. So did you interview the listed supply 
quality engineer, or look into what role he might have played 
in approving the switch change in 2006?
    Mr. Valukas. We did the following. We looked at that form 
change, and what happened with that form change is the 
following. So the supply quality engineer's function is to 
determine whether the boxes are filled out and materials are 
properly identified here, and then he submits that and puts 
that into the system. He does not have, as we understand it, 
anything to do with making decisions on the change. He's 
actually functioning as somebody putting something into the 
system. Did we do an interview? I don't think we interviewed 
that particular individual. We know what his function was and 
what the role was.
    Ms. Schakowsky. Well, I don't want to minimize Mr. 
DeGiorgio's role or excuse his actions in any way, but I do 
think these documents going to the fact that the problem at GM 
is deeper than just one rogue engineer.
    And I yield back.
    Mr. Murphy. Thank you. Yields back.
    And now recognize Mr. Johnson from Ohio for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Valukas, your report discusses an early May 2005 e-mail 
related to a customer concern about the ignition switch. That 
is at tab 12 of the folder that you have there. Your report 
focused on Mr. DeGiorgio's awareness of this exchange. There 
were others on this exchange, including Doug Parks. What was 
Doug Parks' position at the time?
    Mr. Valukas. I honestly don't recall his title at that 
time.
    Mr. Johnson. Wasn't he the vehicle chief engineer?
    Mr. Valukas. He may well have been. As I say, I don't 
recall.
    Mr. Johnson. Why was it more significant that Mr.--let us 
assume that he was, because that is what we think he was, why 
was it more significant that Mr. DeGiorgio was aware of this 
exchange rather than the vehicle chief engineer?
    Mr. Valukas. I don't know that it was more significant. It 
was significant because Mr. DeGiorgio ultimately made the 
decision to change the part. And in our interviews with him, he 
said that he was not aware of the fact that this was an issue, 
that he was not aware of the publicity and was not aware of the 
e-mail traffic concerning this, while we had information that 
that was not, in fact, the case.
    Mr. Johnson. What is the chief engineer's responsibility?
    Mr. Valukas. Within the company?
    Mr. Johnson. Yes.
    Mr. Valukas. And I do not have an answer for that.
    Mr. Johnson. OK.
    Mr. Valukas. But I can find out and I would be happy to 
submit that information.
    Mr. Johnson. Ms. Barra, do you know what the chief 
engineer's responsibility is?
    Ms. Barra. The chief engineer is responsible for the 
overall integration of the vehicle, and making the balance and 
tradeoff decisions for that vehicle.
    Ms. Johnson. OK. What----
    Ms. Barra. And if issues are raised to him, then he or she 
will deal with that.
    Mr. Johnson. OK. What knowledge should someone in the chief 
engineer position have about the vehicle, compared to someone 
such as Mr. DeGiorgio? I mean would it be reasonable that the 
vehicle chief engineer would have known about this situation?
    Ms. Barra. Again, there are 30,000 parts on a car. The 
chief engineer has to count on the people doing their job. We 
have now put--in the mid-2000s there were validation engineers 
that were added to make sure that the process was done well, 
and now with the product integrity organization, we will be 
validating the subsystems. But the chief engineer----
    Mr. Johnson. Takes information from those that----
    Ms. Barra. Right.
    Mr. Johnson [continuing]. Come up, OK.
    Ms. Barra. The system works----
    Mr. Johnson. I have to move on. In a May 4 response to this 
chain, Mr. Parks requests a plug to insert in the key head, 
since it appears to be the only, in his opinion, ``only real 
quick solution.'' But this solution was not implemented for 
months.
    Mr. Valukas, do you know why?
    Mr. Valukas. Park of the dysfunction of what was happening 
in the organization. They were treating this as a customer 
convenience issue, rather than safety issue, so they looked at 
issues in terms of price, expense, cost----
    Mr. Johnson. Rather than safety.
    Mr. Valukas. That was it.
    Mr. Johnson. OK. A few weeks later on May 17, a new PRTS 
was initiated. At the time, the program team decided to pursue 
additional solutions beyond the service fix for the key insert, 
a short-term production fix for a new key that changed the slot 
to a hole, and a long-term solution to introduce a more robust 
ignition switch. Who was responsible for initiating and 
implementing these changes?
    Mr. Valukas. These would have been the committees which 
were involved in the--and I don't have the committee name in 
front of me, I will look at the report, but the committees that 
were involved in the review, and ultimately they didn't do what 
they said they were going to do.
    Mr. Johnson. Were they reviewed by the vehicle chief 
engineer?
    Mr. Valukas. I don't know that.
    Mr. Johnson. You don't know. Do you know?
    Ms. Barra. As I read the Valukas report, I think that--I 
think what you are referring to was continuous improvement 
team----
    Mr. Johnson. OK.
    Ms. Barra [continuing]. And I believe the chief was not 
there, it was the program engineering manager.
    Mr. Johnson. Why did it take until 2009 to implement the 
new key head, and who was responsible for ensuring that this 
change was implemented? Do either of you know?
    Mr. Valukas. I can tell you that the reason it was delayed 
was because it was treated again as a customer convenience 
issue. They had an issue with regard to their supplier, and a 
dispute with regard to his ability to deliver, and it wasn't 
until 2009 that the dispute was resolved, and they ultimately 
made that change with regard to the key.
    Mr. Johnson. OK. Ms. Barra, in my previous life, I worked 
in a publicly traded company as a part of the executive team. 
We had a risk and compliance department. We had a risk and 
compliance director. My understanding of this issue, part of 
the concern that you have addressed, and that you are 
continuing to address, is that this information never bubbled 
up to some of the key decision-makers. The SEC requires, there 
are laws that require reports of risk and compliance-related 
issues. Were any of the SEC reports, or did the risk--were the 
risk and compliance folks notified that millions were being 
paid out for claims as a result of some of these problems? How 
does it break down that bad in a company that is publicly 
traded?
    Ms. Barra. I can't speak to specifically what was in an SEC 
report, but what I can tell you, it is unacceptable the way 
things broke down, and that is why we have made dramatic 
process changes. But as Congresswoman DeGette indicated as 
well, we have to make substantial changes in the culture, and 
we are well on our way to doing that. And I believe the men and 
women of General Motors want to make sure we have the safest 
and the highest quality vehicles on the road.
    Mr. Johnson. OK. Thank you, Mr. Chairman. I yield back.
    Mr. Murphy. Gentleman yields back.
    Now recognize Mr. Tonko for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair. And welcome to our panel.
    As we examine what went wrong on this terrible tragedy, the 
most important job, I believe, for Congress is to strengthen 
and improve auto safety laws to ensure that something like this 
never happens again. We certainly owe it to the families of the 
victims of this tragedy, many of whom are in our audience today 
for the hearing.
    That being said, one area that I believe we need to address 
is to improve early warning report data.
    Mr. Valukas, can you describe briefly early warning report 
data?
    Mr. Valukas. What is the data itself?
    Mr. Tonko. Yes.
    Mr. Valukas. Information that comes to the attention of the 
company which indicates that there are potential safety 
problems of which they are required to make alerts.
    Mr. Tonko. And I believe the 2000 TREAD Act requires that 
the information be reported to NHTSA?
    Mr. Valukas. That is correct.
    Mr. Tonko. So, Mr. Valukas, you describe a number of cases 
where GM investigators analyzed this TREAD data to attempt to 
identify or explain airbag non-deployment in Cobalts and Ions. 
Is that not correct?
    Mr. Valukas. In the Ions, yes. The answer is I cannot give 
you a number of where that was done.
    Mr. Tonko. And the federal regulators also conducted 
analyses of the early warning report data, but were not able to 
separate the wheat from the chaff, so to speak, and identify 
the defect?
    Mr. Valukas. The issue of the non-deployment of the airbag 
was a matter of discussion in 2007 between NHTSA and General 
Motors. We note--it was NHTSA saying we note that there are 
these non-deployments. GM's response to that was to begin an 
investigation under Mr. Sprague to keep a chart of what was 
taking place. There were no major further discussions about 
that issue until 2013.
    Mr. Tonko. It seems that part of the problem here is that 
early warning report data provided to NHTSA are reported in 23 
broad categories. In the case of this defect, the early warning 
data provided to NHTSA spans several categories, including 
engine, airbags, and a category of other. NHTSA is able to 
request more detailed information from auto manufacturers for 
individual warrantee claims and field reports, but it is 
difficult to know what is--what to request, given the minimal 
level of detail provided in the first place. NHTSA needs more 
detailed early warning data so that they can spot trends, and 
request the most useful follow-up information from the auto 
manufacturers, and more early warning data should be available 
to the public. We can all appreciate the value of outside 
experts in spotting issues that otherwise go undetected.
    Finally, NHTSA needs appropriate enforcement mechanisms to 
ensure auto manufacturers comply with the laws, especially when 
safety is at stake.
    On May 16, GM agreed to pay the maximum fine for failure to 
report a safety-related defect to NHTSA, and that, I believe, 
is $35 million. Ms. Barra, what was GM's net income in 2013?
    Ms. Barra. Three point--yes, I was going to say, it was 
just under $4 billion.
    Mr. Tonko. Just under $4 billion. So the penalty for 
failing to report the ignition switch defect is less than 1 
percent of GM's earnings for last year.
    Ms. Barra. That is correct math, but I think our intent is 
that we deal with safety issues. By the time you get to talking 
about a fine, the customer has already been impacted in an 
incredibly negative way. We want to make sure we are putting 
high quality, safe vehicles on the road, and we want to work in 
cooperation with NHTSA to do that.
    Mr. Tonko. Nonetheless, it is not much of a deterrent, Mr. 
Chair. We need to increase this maximum penalty. Thirty-five 
million dollars is not an adequate deterrent to a large 
profitable company like GM. If the penalty for inaction had 
been higher, GM might not have waited over a decade to report 
this safety defect to NHTSA. And it is clear to me that NHTSA 
needs higher penalty authorities. We need to make certain that 
the penalty for not reporting a safety defect is a sufficient 
threat to deter auto companies from needlessly delaying safety 
decisions. Fixes in these areas, like the TSB's public 
improving early warning report data, and increasing penalties, 
should be easy for us to agree upon.
    And with the seconds that I have remaining, the GM recall 
Web site indicates that, even after the new switch is 
installed, customers should ``only utilize the key, key ring 
and key fob, if equipped, that came with the vehicle.
    Ms. Barra, many consumers have key chains with multiple 
keys. Why, if the new replacement switch is adequate, does GM 
still recommend that consumers not use their full key rings the 
way they would normally use them?
    Ms. Barra. Again, the system meets and has been validated, 
and that has been validated also by NHTSA, but as I have gone 
through this process over the last 3 months, I have seen 
incredible things on key chains that, across the industry--I 
think this is actually an industry issue that we have to look 
at. I notice key chains everywhere I go now, and I just think 
it is something that needs to be addressed more broadly across 
the industry.
    Mr. Tonko. Thank you, Mr. Chair. I yield back.
    Mr. Murphy. Thank you.
    Now recognize Mr. Long for 5 minutes.
    Mr. Long. Thank you, Mr. Chairman. And thank you all for 
being here.
    Mr. Valukas, do you feel like that you conducted a thorough 
investigation?
    Mr. Valukas. Yes.
    Mr. Long. According to what you testified to today, if my 
math is right, how many people were on that team? How many 
people investigated along with you?
    Mr. Valukas. The number of individuals who were employed at 
one point or another in reviewing documents, doing interviews, 
several hundred.
    Mr. Long. Several hundred. According to my math, you all 
looked at 1,220 documents a minute.
    Mr. Valukas. I am sorry, say that again, Congressman.
    Mr. Long. I said, according to my math, you all looked at 
1,220 documents a minute, if you said you had access to 41 
million documents over a 70-day period--I don't know how in the 
world you could do a thorough investigation in that time frame.
    Mr. Valukas. Congressman, we used computers and programs to 
analyze the documents for purposes of kicking out those 
documents which are reflective of the issues that are here. We 
used as part of that database, requests were being made by 
Congress, requests were being of us by the United States 
Attorney's Office, by NHTSA, and we isolated those documents 
and then gave them, through three levels of review, for 
purposes of determining whether they were relevant to any 
aspect here. I feel very comfortable, I can't tell----
    Mr. Long. But back to my first question, do you think it 
was a thorough investigation? I am not in your business, and 
you are, so I am just trying to learn here.
    Mr. Valukas. Well, I am sorry.
    Mr. Long. Yes, so the report that you released, were you 
given a deadline by General Motors on when that needed to be 
out?
    Mr. Valukas. General Motors, the Board of Directors, when 
they employed me to do this investigation, asked me whether I 
could get it done within a certain time frame, and I told them 
we could. That was the deadline; was my commitment that we 
could do it in that time period. Part of that was associated 
with the fact that they wanted to know because there were 
deaths involved here, what caused it, what were the problems. 
Part of it was because we wanted to get the report out or to be 
able to respond to Congress. So we had that deadline.
    Mr. Long. And you got your report completed, or once you 
completed the report, to whom at General Motors did you present 
the results?
    Mr. Valukas. The Board of Directors.
    Mr. Long. OK. And what was their reaction?
    Mr. Valukas. The reaction. I can't tell you what their 
reaction was. I know the reaction was that, as what you have 
seen with Ms. Barra here, is to follow up on it.
    Mr. Long. OK, so you didn't receive any resistance to your 
findings or your recommendations from the Board?
    Mr. Valukas. None. None.
    Mr. Long. And were you asked to make any changes to your 
report?
    Mr. Valukas. No, I was not, and what I did tell them, and 
what I have mentioned to to staff here, that if we found 
something different as we pursued, continued to gather 
documents because there were requests here and elsewhere, we 
would review the report, and if there was anything in the 
report that we found to be in error, or needed to be corrected, 
or changed or anything, we would report that back to the Board, 
and I presume they would report it back to you.
    Mr. Long. So other than that, your report, does that end 
your investigation. And I apologize, I have been here for about 
90 percent of the hearing, but I did have to step out for a few 
minutes a few minutes ago, so----
    Mr. Valukas. No, we believe we have completed the inquiry, 
but as I say, we would update it if we found something which 
changed in any significant way. I believe back last week we 
found something in the report that we corrected, and we 
notified your staff of that immediately.
    Mr. Long. OK, thank you. And I yield back.
    Mr. Murphy. Mrs. Ellmers, you are now recognized for 5 
minutes.
    Mrs. Ellmers. Thank you, Mr. Chairman. And thank you to Ms. 
Barra and Mr. Valukas for being here today for this very, very 
serious subcommittee hearing. And I too, as some of my 
colleagues have said, extend my condolences to the families. It 
must be very difficult for you to be here and listening to this 
dissection of information. As important as it is, these are 
your loved ones.
    Mr. Valukas, this is more of a process question that I have 
for you, sir. Going back, again, over the investigation and 
what you have reported, back in March 2007, it says staff from 
NHTSA approached GM personnel in between meetings in Washington 
and mentioned a concern about non-deployments of the Cobalts 
and Ions. What is your understanding of the information that 
was shared by NHTSA?
    Mr. Valukas. My understanding, it comes from the 
interviews. I did not talk to anybody from NHTSA. We did not 
think that we were going to be interviewing federal officials. 
We interviewed the people at GM, and looked at the documents 
and materials which they produced as a result of that meeting--
--
    Mrs. Ellmers. Yes.
    Mr. Valukas [continuing]. And it was that, in the course of 
that meeting, NHTSA noted that there had been these non-
deployment cases and asked General Motors about them. The 
response to that was the assignment of Mr.--I believe it was 
Mr. Sprague at that point, to look into it and how to document 
what was taking place, to keep a chart essentially as to are 
these happening, how many are there, et cetera.
    Mrs. Ellmers. OK, and the gentleman that you are referring 
to, what division was he in--I am assuming General Motors or 
NHTSA? What division was he part of?
    Mr. Valukas. He was an investigator, I believe, with FPA. 
Yes, FPA investigator, which means he would have been detailed 
into the legal department.
    Mrs. Ellmers. OK, so according to our information, when the 
engineers returned to Michigan, apparently after being here in 
DC, the product investigations team, the group that determines 
the root cause of the problem, reviewed the claims relating to 
the Cobalt non-deployment, but ultimately decided not to pursue 
it. Why did the product investigations not pursue this matter 
at the time?
    Mr. Valukas. That is a very good question, and the answer 
is, this was one of those things that was passed off to another 
agent. Mr. Sprague was keeping track of it. The other 
investigators weren't following up with regard to it. They were 
gathering information, if you will, but that is where they went 
with it.
    Mrs. Ellmers. OK. So when you say that it was kind of 
handed over somewhere else, you are referring to the product--
the field performance assessment----
    Mr. Valukas. Yes.
    Mrs. Ellmers [continuing]. Division?
    Mr. Valukas. Yes.
    Mrs. Ellmers. OK, because according, again, to our 
information, it says after the product investigators declined 
to investigate, the responsibility for tracking these claims, 
or tracking these claims--there again, I think that is 
something significant as well, was assigned to the field 
performance assessment division.
    Mr. Valukas. Right.
    Mrs. Ellmers. Now, do you consider this to be unusual, like 
an unusual pattern to have followed? Would this be typical in a 
situation where there has been an obvious issue that has come 
to light, and it just kind of be passed off to another--and I 
guess I would like to know too, one, it was given to another 
division, but what exactly is the field performance assessment 
division responsible for, and was this just a way to put aside 
the problem because they weren't focusing on it?
    Mr. Valukas. Well, I don't know if it is typical. I do know 
it happened in this case, and it was one of the things we 
called out on the report of passing off responsibility from one 
committee to another committee. FPA would be focused on 
potential claims in the legal department----
    Mrs. Ellmers. Yes.
    Mr. Valukas [continuing]. And whether or not to have 
litigation, or things like that, which indicate the existence 
of these problems, but they are not the products investigators, 
they are a different group. But then here is what you have, is 
you had it passed off to Mr. Sprague----
    Mrs. Ellmers. Yes.
    Mr. Valukas [continuing]. Who then gathered information 
about it for years, and nothing else was taking place other 
than gathering that information, until 2009. So everything was 
in hiatus.
    Mrs. Ellmers. Do you know who it was that actually made or 
authorized that change, who gave the assignment to Mr. Sprague?
    Mr. Valukas. No, I don't. I mean I don't know if we have a 
name. I can get a name for you if----
    Mrs. Ellmers. OK. I----
    Mr. Valukas [continuing]. You want a name.
    Mrs. Ellmers [continuing]. If you could, that would be 
incredibly----
    Mr. Valukas. Absolutely.
    Mrs. Ellmers [continuing]. Important information for us as 
a committee to have. Thank you.
    Mr. Valukas. I know the legal department was at the meeting 
with NHTSA, so it was as if the legal department said, well, we 
will take a look at this and then they went forward. But I will 
get you a name.
    Mrs. Ellmers. Did the FPA ever attempt to evaluate the 
matter back in the product investigation? Was there ever an 
attempt, according to your investigation, did anybody address 
these issues?
    Mr. Valukas. Yes, in--well, in 2009, when they had the 
second continental----
    Mrs. Ellmers. Yes.
    Mr. Valukas [continuing]. Report, then it became elevated, 
if you will. They looked at it, they realized that it was 
something that could be associated with the switch as being the 
cause of the non-deployment----
    Mrs. Ellmers. Yes.
    Mr. Valukas [continuing]. And at that point, other things 
started to take place, including Mr. Sprague going to visit Mr. 
DeGiorgio and asking him whether there had been a change in the 
switch, and him saying no.
    Mrs. Ellmers. OK, so I guess my last and final question 
here was basically, was there a reluctance there, but I believe 
you just indicated that there was--and a reluctance to actually 
acknowledge and address the issue.
    Mr. Valukas. I am sorry, I----
    Mrs. Ellmers. I am sorry, that would probably be 
hypothesizing on your--thank you, Mr. Chairman, for your time, 
and thank you.
    Mr. Murphy. Gentlelady's time has expired.
    Now it is the committee's practice that if another member 
of the full committee can ask questions after other members 
have asked theirs. And so we now recognize Mr. Terry, who is 
the chairman of the Subcommittee of Commerce, Manufacturing, 
and Trade, for 5 minutes.
    Mr. Terry. Thank you, Mr. Chairman. And I too want to 
recognize the parents and family members in the back. Those 
photographs up there really keep reminding us why we are here 
and investigating today.
    Mr. Valukas, I want to ask you because I want to go back 
to--I am still stuck on how these sub-spec parts were even 
allowed at the very beginning of the process. So in that 
regard, the production part approval process that they go 
through when they do the testing, would that 2002 PPAP package 
be a key document in this investigation?
    Mr. Valukas. It certainly would be something I would want 
to see. I think we started out, I don't think we ever found it, 
and we have asked Delphi for it and we don't have it.
    Mr. Terry. And Delphi wouldn't produce it?
    Mr. Valukas. They informed us they don't have it.
    Mr. Terry. They don't have it. Do you believe that?
    Mr. Valukas. I can only report what they told us. We made 
requests from them from the very beginning for access to any 
and all documents relating to this matter. What they produced 
to us were a limited number of documents which were documents 
that had actually been exchanged with us, at least initially. I 
think we may have received a few additional documents over the 
time, but that is what we got.
    Mr. Terry. So no one has been able to locate the PPAP on 
the ignition parts?
    Mr. Valukas. That is my understanding.
    Mr. Terry. Ms. Barra, do you know whether or not the PPAP 
for this ignition parts from 2002 exists?
    Ms. Barra. I don't. I believe Mr. Valukas and his team 
would have found it if it does exist, but what I can tell you 
is the part should have never been put in production.
    Mr. Terry. Agree, and I am proud you said that, but it 
would have been great to discover that in 2002 during the PPAP 
process. And the fact that it wasn't is disturbing in and of 
itself, and that is why I think those documents are extremely 
important, as you do, Mr. Valukas.
    Should this committee consider a subpoena of those records 
since they were not produced? Even though----
    Mr. Valukas. You are putting me where I cannot go. The 
committee is going to conduct its investigation. Let me say 
this, and I think this is important. It is clear, at least from 
our fact-finding, that Mr. DeGiorgio approved this part----
    Mr. Terry. Yes.
    Mr. Valukas [continuing]. And he approved this part knowing 
it was well below specifications, and we did not find anybody 
else who was involved in it, though Delphi certainly knew that 
the part that was being approved was below specification.
    Mr. Terry. And in that respect, you have this binder by 
you, and if you would turn to tab 4, and it is a memo from 
Raymond DeGiorgio regarding the talc issue. Now, this is an e-
mail from around April 2002, it is around the time the original 
switch was actually being approved, is that correct?
    Mr. Valukas. Yes.
    Mr. Terry. And the subject here is GMX 357 talc issue for 
the Saturn Ion, correct?
    Mr. Valukas. Correct.
    Mr. Terry. And that talc--what rule does the talc testing 
have on the approval of the switch, do you know?
    Mr. Valukas. It is part of the process. It is how does it 
feel--it has been explained to me, how does it feel when you 
make the turn, they wanted to make it feel like it was a 
European sports car or something like that.
    Mr. Terry. Well, does this e-mail to Raymond DeGiorgio the 
answer from Mr. Reineke, does that raise any concerns to you as 
the investigator, particularly the sentence that Mr. Reineke 
did not find spring back from crank run to accessory as Terry 
Meehan and others had observed.
    Mr. Valukas. No.
    Mr. Terry. Were you aware of these discussions around the 
time of the switch approval about the feel of that ignition 
switch?
    Mr. Valukas. Yes.
    Mr. Terry. OK. In the last 30 seconds, you mentioned that 
there was an adversarial feeling between NHTSA and GM. Have you 
concluded who is responsible for the adversarial relationship?
    Mr. Valukas. No, I have not, but I just noted from the 
documents, and this is not from testimony; more from the 
documents, just the tone of the documents, and that is maybe an 
incorrect way to assume something, but that from the tone of 
the documents, it suggested that there was some nature of 
adversarial activity here.
    Mr. Terry. One quick last question. There were many times, 
looking through the documents, that under the TREAD Act, GM 
should have provided notice to NHTSA. Does this adversarial 
relationship between the two impact their decision not to 
provide that notice?
    Mr. Valukas. No. When I say no, let me explain what we did, 
and someone else will make that judgment in a different 
context. We went back through all of the disclosures, the TREAD 
Act disclosures, to look to see whether something was or was 
not disclosed, and, at least as best we could tell, marking 
those disclosures, what the information which was then in 
possession by virtue of the interviews or documents we had, it 
appeared to us that the TREAD disclosures were compliant, but I 
will not be the ultimate judge of that.
    Mr. Terry. Thank you, Mr. Chairman. Thank you for the 
additional time.
    Mr. Murphy. Thank you. Gentleman yields back.
    Now Ms. DeGette and I will each have the final 5 minutes. 
All right, Ms. DeGette, recognized for 5 minutes.
    Ms. DeGette. Thank you, Mr. Chairman.
    Mr. Valukas, I wanted to follow up on a couple of questions 
Mr. Johnson was asking you. Your report says on page two: ``GM 
engineers concluded that moving stalls were not safety issues 
because drivers could still maneuver their cars. As a result, 
GM personnel viewed the switch problem as a customer 
convenience issue, something annoying but not particularly 
problematic, as opposed to the safety defect it was.'' Is that 
right?
    Mr. Valukas. Correct.
    Ms. DeGette. And you told Mr. Johnson--so, therefore, 
because they called it a customer convenience issue, they 
looked at issues of pricing and issues like that, not issues of 
safety. Is that right?
    Mr. Valukas. That is correct.
    Ms. DeGette. And this was despite the fact that, really 
pretty early on, GM started getting a lot of complaints about 
the ignition shifting into neutral, and the car losing all 
power. Is that right?
    Mr. Valukas. That is correct.
    Ms. DeGette. In fact, in a review of the Cobalt in the New 
York Times, the freelance writer said that his test Cobalt 
driven by his wife stalled after her knee bumped the steering 
column, right?
    Mr. Valukas. There were reports in New York Times and other 
newspapers----
    Ms. DeGette. And Cleveland Plain Dealer--and others, and so 
I find--this kind of boggles my mind. A car could be going down 
the highway at a high rate of speed, 65 miles an hour, and it 
gets bumped, it goes into neutral, and then everything stops, 
the power steering, the brakes, the airbags. That is what 
happened to Brooke Melton, where she is driving down the 
highway in Hiram, Georgia, on her 29th birthday, the ignition 
stops, the car loses power, she goes into the other lane and 
she is killed. Do you know about that case?
    Mr. Valukas. I know about that case.
    Ms. DeGette. Yes.
    Mr. Valukas. I certainly do.
    Ms. DeGette. And so yet the GM engineer said that this was 
a convenience issue, right?
    Mr. Valukas. They not only said it internally, they said it 
publically when they were interviewed by the Press. They said 
this is our position, that a stall does not constitute a safety 
issue, and that----
    Ms. DeGette. But that----
    Mr. Valukas [continuing]. Was one of----
    Ms. DeGette. That is just insane, isn't it?
    Mr. Valukas. I don't--won't use the word insane, but----
    Ms. DeGette. OK.
    Mr. Valukas [continuing]. I am troubled by that.
    Ms. DeGette. Yes, OK, good. Now, at the same time, GM was 
talking to NHTSA about whether stalling was a safety risk. Are 
you aware of that?
    Mr. Valukas. I am aware there were conversations for all 
this period of time.
    Ms. DeGette. Now, Ms. Barra, were you aware that at the 
same time NHTSA was talking to GM in June 2004, that General 
Motors recalled 15,000 Oldsmobile Bravadas and Envoys because 
of stalling risks?
    Ms. Barra. I was not involved in that area at that time.
    Ms. DeGette. So you are not aware of that?
    Ms. Barra. No.
    Ms. DeGette. Well, Gay Kent signed that notice, and was Gay 
Kent reporting to you at that time?
    Ms. Barra. No.
    Ms. DeGette. OK. Did Gay Kent ever express any concern to 
you about the stalling and safety risks from the Ions and 
Cobalts?
    Ms. Barra. No.
    Ms. DeGette. OK, so basically, what you are saying in your 
report, Mr. Valukas, is you have these cars that stall out at 
any speed really, and all of the power goes out, but yet the GM 
personnel maintained this was a customer convenience issue?
    Mr. Valukas. That is where they were, absolutely, from 2005 
through 2009 at least.
    Ms. DeGette. OK. Now, have you ever talked to a fellow 
named Clarence Ditlow, who is with the Center for Auto Safety?
    Mr. Valukas. I have received correspondence from him.
    Ms. DeGette. Did you receive this letter dated June 17, 
2014, from him?
    Mr. Valukas. In the packet?
    Ms. DeGette. I am sorry?
    Mr. Valukas. Is it in the material that was just given to 
me?
    Ms. DeGette. I don't know, but we can hand you a copy. And 
Mr. Ditlow's conclusion is that the Valukas report is clearly 
flawed and accepting GM's explanation that its engineers and 
senior managers did not know stalling was safety related. Are 
you aware of this claim that Mr. Ditlow made?
    Mr. Valukas. I am aware of his claim. Actually I know I 
read this letter and I sent him back a nice note saying thank 
you for the information.
    Ms. DeGette. And what is your view of that?
    Mr. Valukas. My view is that he didn't read the report and 
understand what my responsibility was here. You have asked for 
my view, let me give my view. What we were charged to do, and I 
think this is very important to understand, we were charged by 
the Board of Directors, find the facts concerning how and why 
this occurred. We were charged with laying those facts before 
the Board, and we were charged with making recommendations. And 
the Board was charged with the responsibility, I presume, of 
making decisions whether or not the employees within the 
organization, to the top level, lived up to their 
responsibilities. That was where the Board's responsibility 
was. So the suggestions in here that, we didn't cover people or 
we were----
    Ms. DeGette. So----
    Mr. Valukas [continuing]. That we exonerated certain people 
is not--is just simply not correct.
    Ms. DeGette. Mr. Valukas, I really appreciate that answer 
because you clearly delineated what you were hired to do, and 
you believe you were hired to do that, correct?
    Mr. Valukas. That is correct.
    Ms. DeGette. Now, so there may be other information that 
this committee needs to gather beyond your report, right----
    Mr. Valukas. That is----
    Ms. DeGette [continuing]. And conclusions?
    Mr. Valukas [continuing]. Absolutely possible, and as I 
said before, if we found new information as we went along which 
reflected that, we would share it.
    Ms. DeGette. You will share it with this committee, 
correct?
    Mr. Valukas. Share it with the----
    Ms. DeGette. Thank you. Mr. Chairman, I would ask unanimous 
consent to place this June 17 letter into the record, and also 
a report by the American Association for Justice, entitled 
Driven to Safety, from June 2014, talking about some of the 
lawsuits that we have involved in this issue.
    Mr. Murphy. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Ms. DeGette. Thank you very much. And thank you again for 
coming, both of you, today.
    Mr. Murphy. Thank you. Dr. Burgess wanted to make that 
follow-up question about the phone number.
    Mr. Burgess. The unanimous consent request, since I brought 
it up, to put into the record 1-800-222-1020, is the customer 
service number that should be available to customers of General 
Motors, and also just the observation we are talking about the 
non-deployment of an airbag, which is a supplemental restraint 
system, the primary restraint system is the seatbelt, and I do 
encourage people, you have to wear your seatbelts when you 
drive on the highways.
    And I will yield back.
    Mr. Murphy. Thank you.
    I now recognize myself for a final 5 minutes here.
    I just want to be clear, Mr. Valukas, so when you said when 
you get additional data, and it was very clear in your mandate 
from Ms. Barra that she wanted this to be thorough, basically 
no stones unturned, that if you received that other information 
from plaintiffs' attorney, I hope you will share that with us. 
You said that they have not responded to you as of yet, but if 
there was information that they have with regard to delays from 
General Motors' attorneys in getting them information, I hope 
you will review that and let us know.
    Mr. Valukas. And I would like to be clear, simply because 
of my responsibilities here, I will gather that information. 
Whatever we do, we would have to share with the Board of 
Directors. They will make the decision as to disclosure, but in 
this instance, they have made those decisions up to this point, 
so----
    Mr. Murphy. Thank you.
    Ms. Barra, a couple of points. I want to make sure we are--
now with the benefit of time, we recognize that the Cobalt and 
several other automobiles had a defective switch. That switch, 
for a couple of reasons, hitting a pothole, a bump, bumping the 
key ring with your knee, or a heavy key fob, could have moved 
that on switch into an accessory position, correct, cause a 
stalling of the vehicle, subsequent loss of power steering and 
power brakes when the engine was not on, and also the airbags 
would not deploy. All those things are clear, right?
    On page eight of Mr. Valukas' report, there is reference to 
a technical service bulletin from 2005, and it says in here 
that the technical service bulletin counseled customers to 
remove heavy items from the key rings, and offered an insert to 
the key that would reduce the likelihood that the ignition 
switch would rotate inadvertently. That bulletin did not refer 
to the problem as ``stalling,'' however, precisely because 
General Motors believed customers might associate stalling with 
a safety problem, and only a customer who had already 
experienced a stall who came to a dealer to complain, would get 
information about the proposed solutions. Other customers would 
remain unaware of the problem, as well as GM's proposed 
solutions.
    I am assuming that if you knew then what you knew now, you 
would not have allowed that sort of bulletin to be written in 
that way?
    Ms. Barra. That is correct.
    Mr. Murphy. Thank you. Now, I want to, however, refer to 
something that is taking place today, which it is important for 
you know. That is, I took a look at the GM current Web site 
with regard to the safety recall. Your comments are under your 
speech, et cetera, and I go to the section marked frequently 
asked questions. Under the item number 7, ``are the recalled 
vehicles safe to drive?'' You say, the simple answer to that 
question is yes. The GM engineers have done extensive analysis 
to make sure if you use only the ignition key with no 
additional items in the key ring, that the vehicle is safe to 
drive.
    Ms. Barra. And that is true. We have validated that. It has 
also been validated by NHTSA.
    Mr. Murphy. The old Cobalts that could also go into a 
stall----
    Ms. Barra. We are talking about as long as you have just 
the key or the ring, you don't end up having the moment and you 
don't have an ability to trap it with your knee, that that 
condition is not going to occur. That is what that statement is 
referring to.
    Mr. Murphy. They still could not hit it with their knee? 
OK.
    Ms. Barra. The issue is when you look at just the key, you 
don't create a moment to be able to do that.
    Mr. Murphy. But still what it does not say at all in this 
statement, customer, if you don't do this, your car may stall, 
you may lose power steering, you may lose your brakes, you 
won't have your airbag, this is an extreme safety concern. It 
simply says this isn't a big safety deal. And then you even say 
once a service repair is completed, can customer put a heavy 
key ring back on, you say, well, we recommend only utilize the 
key, key ring and key fob, if equipped, that came with the 
vehicle. So you say if you repair this, with the previous item 
that I just quoted, if you repair this, you will be fine, and 
later on you say, but don't change the key issue, so I don't 
understand how that is fixed.
    Ms. Barra. Well, first of all, on the FAQ, the frequently 
asked questions that you are referring to, that--there are a 
number of questions, and there were also opening statements. I 
know I personally recorded videos that we have on our Web site 
to truly communicate what we need to do. It has been included 
in our letters. So I think you have to look at the complete 
communication, not one question.
    OK.
    Mr. Murphy. But my point is this. I am making 
recommendations to you. You have come before our committee and 
I believe you have been trying to be honest and 
straightforward. My recommendation to you is there are how many 
Cobalts still out there, how many Ions, how many other cars 
that are affected by this?
    Ms. Barra. Something less than 2.6 million.
    Mr. Murphy. Two point six million. And so far, I forget how 
many you said in your Web site have been repaired.
    Ms. Barra. Almost 200,000.
    Ms. Murphy. OK. That is a lot of cars out there----
    Ms. Barra. Right.
    Ms. Murphy [continuing]. That could still stall, you lose 
power steering, you can lose power brakes, you could lose 
control of the car, you could crash, your airbags won't deploy, 
some will be injured or die. I hope that that becomes a lot 
more glaring than simply have him go through and says, no, it 
is safe to drive. I don't think it is safe to drive.
    Ms. Barra. Congressman Murphy, we have sent letters, we 
have gone on social media, I have done videos, our dealers have 
been informed, we have done special training sessions. Believe 
me, we take it very seriously, and we want people to know that 
until their vehicle is repaired, that we want them to only use 
the key and the ring. We have done extensive communications 
because I don't want any other incidents to occur.
    Mr. Murphy. Ma'am, I hear what you have done. I am talking 
about what I would recommend you still do.
    Look, the unfortunate thing about this is that with all the 
things that you do, like in our lives, to all the things we do 
to try to communicate with people, many times people don't read 
mail, they don't watch commercials on TV, they don't look at 
things like this, and so you have to try all levels in that. It 
isn't until it maybe gets on a comedy network or something that 
people pay attention. I would highly recommend that what you do 
in this situation is make it very clear that if you don't do 
this, this is a consequence. I would hope that that would be 
something GM would make abundantly clear because I may not know 
a lot about--but I know as a psychologist what motivates 
people, and if you give them the bold, blasting facts, if you 
don't do this, you could be in a serious accident, that might 
wake up people to understand that in order for GM to work on 
safety, customers have to pay attention to this too, and I hope 
that that is something that people across America will pay 
attention to.
    As I said before, I thought this report could be subtitled, 
don't assume malfeasance when incompetence will do. There is 
more to it than that. We all have to take responsibility. And I 
see this as something that I still hope GM does more with 
communication.
    Ms. Barra. We will redouble our efforts there.
    Mr. Murphy. Thank you.
    I now want to ask unanimous consent that the Members' 
written opening statements be introduced into the record, and 
without objection, those documents will be entered into the 
record.
    And I ask unanimous consent that the document binder from 
this hearing be entered into the record, subject to appropriate 
written redactions by staff. \*\
---------------------------------------------------------------------------
    \*\ The information has been retained in committee files and is 
also available at http://docs.house.gov/Committee/Search/
Home.aspx?Keyword=Path%3a%22%2fIF02%2f%22.
---------------------------------------------------------------------------
    Mr. Murphy. In conclusion, I want to thank the witnesses 
today and the Members that participated in today's hearing.
    I remind Members they have 10 business days to submit 
questions to the record, and I ask that the witnesses all agree 
to respond promptly to questions.
    And with that, I adjourn this hearing.
    [Whereupon, at 12:50 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    

                                 <all>
</pre></body></html>
